Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of December 31, 2012
Foreword
This is the twelfth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers the period from October 1 to December 31, 2012. The U.S. Embassy reported that,
as of December 31, 2012, $3.612 billion in civilian assistance funds for fiscal years 2010, 2011, and 2012
had been obligated and that $3.278 billion had been spent since fiscal year 2010.

Program status information in this report is based on information provided by the departments and
agencies working in Pakistan—the Departments of Agriculture, Commerce, Defense, and State and the
U.S. Agency for International Development, U.S. Institute of Peace, and U.S. Trade and Development
Agency. In most instances, this information has not been independently verified or audited. The
information on program oversight comes from audits, reviews, and investigations performed by the
Offices of Inspector General of the U.S. Agency for International Development and the Departments of
Agriculture, Commerce, Defense, Homeland Security, Justice, and State, as well as by the Government
Accountability Office.



                  /s/                   .
Michael G. Carroll
Deputy Inspector General
U.S. Agency for International Development



                /s/                        .
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



                  /s/                      .
Lynne M. Halbrooks
Principal Deputy Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1
Background.......................................................................................................................................................................... 3
Program Status ................................................................................................................................................................... 7
    Energy .............................................................................................................................................................................. 9
    Economic Growth ....................................................................................................................................................... 13
    Stabilization ................................................................................................................................................................... 20
    Education ....................................................................................................................................................................... 31
    Health ............................................................................................................................................................................. 35
    Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency ......................... 39
    Humanitarian Assistance ........................................................................................................................................... 46
    Assistance to Pakistani Institutions ......................................................................................................................... 53
Staffing ................................................................................................................................................................................ 56
Risks and Mitigation Strategies ..................................................................................................................................... 58
Oversight Status ............................................................................................................................................................... 63
    Department of State Office of Inspector General .............................................................................................. 63
    USAID Office of Inspector General........................................................................................................................ 64
    Government Accountability Office ......................................................................................................................... 72
Appendix I—Distribution of U.S. Assistance by Agency ........................................................................................ 73
Appendix II—Completed Oversight Reports ........................................................................................................... 76
Appendix III—Abbreviations ......................................................................................................................................... 85
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009), authorizes
democratic, economic, and development assistance to Pakistan of up to $1.5 billion per year from fiscal
year (FY) 2010 to FY 2014, for a total of $7.5 billion. The U.S. Department of State’s Pakistan Assistance
Strategy Report, issued in December 2009, guides the U.S. Government’s civilian assistance program in
Pakistan, which is designed to build trust and a long-term partnership between the two countries by
strengthening mutual security, stability, and prosperity.

The U.S. Embassy reported that, as of December 31, 2012, $3.612 billion in civilian assistance funds for
FYs 2010, 2011, and 2012 had been obligated and that $3.278 billion had been spent since FY 2010.
These funds are intended to address the country’s most critical infrastructure needs, help the Pakistani
Government meet its citizens’ basic needs and provide improved economic opportunities, and
strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

Challenges to implementation of the civilian assistance program in Pakistan remain in every sector.
Limited local technical capacity has affected the implementation of many assistance efforts. Many
programs operate under difficult security conditions, and implementing partners and program
participants have been subject to criticism and harassment for their association with U.S. Government
efforts. Program staffing and events have been hampered by the denial of visas and visa extensions to
U.S. Government employees, and project personnel have been kidnapped and killed in areas where
security is lacking. Despite these challenges, implementation of assistance programs continued.

The U.S. Agency for International Development (USAID) continued to implement programs through
Pakistani institutions, including national and provincial governments and nongovernmental organizations
(NGOs). During FYs 2010, 2011, and 2012, USAID awarded $2.211 billion to governmental and
nongovernmental Pakistani institutions. From October 1 through December 15, 2012, USAID made
awards to these groups totaling $36.8 million. To overcome risks to its programs and improve
monitoring and oversight of them, USAID continued to conduct preaward assessments of local
implementing partners and hired independent monitors to report on project developments.

To protect USAID funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted investigations and audits. OIG investigations resulted in the
resignation of the head of one local USAID implementer and the establishment of a conflict-of-interest
policy by another. USAID OIG also issued 15 financial audits and 2 agreed-upon procedures reports
relating to assistance programs in Pakistan. In total, these reports made 13 recommendations for
program improvement and questioned approximately $13.6 million in costs.

The Department of State (DOS) OIG completed a followup review on the Fulbright Program in Pakistan
during the quarter. Auditors found that DOS had made several program improvements in response to


                                                                                                        1
past OIG recommendations but had not ensured that the U.S. Educational Foundation in Pakistan had
instituted an adequate internal control system.




                                                                                               2
Background
The United States is Pakistan’s largest reported source of bilateral development assistance and the
largest contributor to Pakistan’s leading providers of multilateral development assistance. U.S. civilian
assistance to Pakistan is important to maintaining the long-term strategic partnership that the U.S.
Government sought to forge with the Government of Pakistan and its citizens through the Enhanced
Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009). The act authorized
$1.5 billion per year for FYs 2010–2014, for a total of $7.5 billion, in democratic, economic, and
development assistance.

In 2009, DOS developed a strategy for providing civilian assistance to Pakistan.1 The strategy’s
objectives include addressing the country’s most critical infrastructure needs; helping the Pakistani
Government meet basic needs and provide improved economic opportunities, especially in areas most
vulnerable to extremism; and strengthening Pakistan’s capacity to pursue economic and political reforms
that reinforce stability. The strategy initially focused on high-impact, high-visibility infrastructure
programs, the provision of humanitarian and social services, and improved governance and security. In
2011, USAID and DOS refined the strategy to focus assistance on energy, economic growth,
stabilization, education, and health. Programs in these sectors incorporate crosscutting themes of good
governance, gender equity, and greater transparency.2 In addition to civilian assistance efforts in these
sectors, the U.S. Government seeks to provide fast and effective humanitarian relief when called upon
for assistance.

Political and security conditions in Pakistan continued to complicate project design, implementation, and
monitoring. U.S. Government personnel and implementing partners reported that delays in visa
approvals and harassment by Pakistani officials hindered the progress of assistance programs. U.S.
Government personnel are subject to security-related travel restrictions, and project activities are often
delayed or cancelled because of security concerns. In December 2012, nine polio-eradication workers
were targeted and killed because of their involvement with polio vaccination drives. According to a
database of incidents of violence against aid workers, 33 aid workers were killed in Pakistan, 26
wounded, and 31 abducted from October 2009 to December 2012.3

Since the ratification of the Enhanced Partnership with Pakistan Act, the U.S. Congress has appropriated
$3.531 billion in civilian assistance funding for Pakistan through four foreign operations accounts. As of
December 31, 2012, the U.S. Embassy in Islamabad reported that U.S. Government agencies had

1
    Pakistan Assistance Strategy Report, December 14, 2009.
2
  Office of the Special Representative for Afghanistan and Pakistan, Status Report: Afghanistan and Pakistan Civilian
Engagement, November 2011.
3
   Humanitarian Outcomes, Aid Worker Security Database, 2009–12, https://aidworkersecurity.org/, retrieved
December 31, 2012.


                                                                                                                   3
obligated $2.592 billion of this total (Table 1). Other assistance funds for Pakistan, such as International
Disaster Assistance, Food for Peace, Migration and Refugee Assistance (MRA), and Emergency Refugee
and Migration Assistance (ERMA), are not designated for use in specific countries during the
appropriations process. These other funds are not shown in Table 1.

                Table 1. Civilian Assistance to Pakistan by Fund and Agency for
                  Select Foreign Assistance Funds as of December 31, 2012
                                     ($ Million; Unaudited)

                                       Appropriated*                                              Obligated
         Fund                                                                  Agency
                          FY 2010 FY 2011 FY 2012           Total                                FYs 2010–2012

 Economic Support                                                      Department of
                           1,247.0      891.0     864.7     3,002.7                                        1.0
 Fund (ESF)                                                            Commerce (DOC)
                                                                       Department of Defense
                                                                                                         14.0
                                                                       (DOD)
                                                                       DOS                               74.7
                                                                       Department of the
                                                                                                           0.1
                                                                       Treasury (DOT)
                                                                       USAID                           2,073.1
                                                                       U.S. Department of
                                                                                                         29.1
                                                                       Agriculture (USDA)
                                                                       U.S. Institute of Peace
                                                                                                           3.0
                                                                       (USIP)
                                                                       U.S. Trade and
                                                                       Development Agency                  3.0
                                                                       (USTDA)
                                                                           Subtotal                   2,198.1
 Global Health and
 Child Survival               29.7       28.4         –        58.1    USAID                             54.7
 (GHCS)
 International
 Narcotics and Law
                             170.0      114.3     116.0       400.3    DOS                              284.4
 Enforcement
 (INCLE)
 Nonproliferation,
 Anti-terrorism,
 Demining, and                23.9       24.8      20.8        69.5    DOS                               55.2
 Related Programs
 (NADR)

 Total                    1,470.6    1,058.5    1,001.5     3,530.6                                   2,592.4

Source: DOS Office of Foreign Assistance Resources and U.S. Embassy Islamabad.

                                                                                                              4
* Reported amounts are limited to funds that were designated for use in Pakistan during the appropriations
  process. Foreign operations appropriations for FY 2010 were provided in the Consolidated Appropriations
  Act, 2011, Public Law 111-117 (December 16, 2009) and the Supplemental Appropriations Act, 2010, Public
  Law 111-212 (July 29, 2010). Foreign operations appropriations for FY 2011 were provided in the Department
  of Defense and Full-Year Continuing Appropriations Act, 2011, Public Law 112-10 (April 15, 2011), and foreign
  operations appropriations for FY 2012 were provided in the Consolidated Appropriations Act, 2012, Public
  Law 112-74 (December 23, 2011). The latter act also provided the basis for rescissions that were applied to
  appropriations for Pakistan.


GHCS, INCLE, and NADR funds are each obligated for assistance activities in a single sector. GHCS
funds support health sector activities, while INCLE and NADR funds support stabilization efforts. By
contrast, ESF money is used in all components of the U.S. Government’s civilian assistance program in
Pakistan. All energy, economic growth, and education activities are funded through ESF, and ESF
provides most of the funding for health programs and those that support good governance, gender
equity, and greater transparency. ESF also accounts for about half of stabilization sector obligations and
more than a quarter of U.S. humanitarian assistance obligations.

The President’s budget request for FY 2013 included $1.071 billion in ESF, INCLE, and NADR funds for
civilian assistance to Pakistan. However, Congress had not settled on final funding levels for FY 2013 by
the end of the reporting period. In September, Congress passed a resolution to continue funding
federal programs and activities through March 27, 2013.4 None of this funding was allocated for
assistance to Pakistan.




4
    Continuing Appropriations Resolution, 2013, Public Law 112-175 (September 28, 2012).


                                                                                                             5
                                             Map of Pakistan




Source: USAID Office of Transition Initiatives, Geographic Information Unit.




                                                                               6
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in energy, economic growth, stabilization, education, and health; the crosscutting areas of
governance, gender equity, and greater transparency; and humanitarian assistance. Table 2 and the
sections that follow it provide information on the status of the programs in these areas.

The U.S. Embassy reported that as of December 31, 2012, $3.612 billion in civilian assistance funds from
FYs 2010, 2011, and 2012 had been obligated and that $3.278 billion in funding had been spent to
support the civilian assistance strategy since FY 2010 (Table 2).

   Table 2. Civilian Assistance to Pakistan by Sector and Fund as of December 31, 2012
                                   ($ Million; Unaudited)

                                                        Obligated*                      Disbursed
                                                                                                   †
     Sector                 Fund
                                                                                       FYs 2010–2012
                                          FY 2010   FY 2011   FY 2012       Total

 Energy               ESF                    98.3     237.5          0.0      335.8           195.7
                     Subtotal                98.3     237.5        0.0        335.8           195.7

 Economic             ESF                    98.6     178.1          0.3      277.0           153.1
        ‡
 Growth              Subtotal                98.6     178.1        0.3        277.0           153.1

 Stabilization
                 ‡    ESF                   253.8     150.4          0.6      404.8           461.4
                      INCLE                 166.0     114.4          4.0      284.4           140.6
                      NADR                   32.0      22.4          0.8       55.2             24.8
                      Pakistan
                      Counterinsurgency       –        70.0           –        70.0               –
                                 §
                      Fund (PCF)

                     Subtotal              451.8      357.2        5.4        814.4           626.8

 Education            ESF                   225.9     101.8       19.5        347.2           280.7

                     Subtotal              225.9      101.8       19.5        347.2           280.7

 Health               ESF                   196.9      57.5           –       254.4
                                                                                              212.7
                      GHCS                   27.5      27.2           –        54.7
                     Subtotal              224.3       84.7           –       309.1           212.7




                                                                                                       7
                                                                Obligated*                        Disbursed
                                                                                                              †
       Sector                Fund
                                                                                                 FYs 2010–2012
                                              FY 2010      FY 2011     FY 2012        Total

    Crosscutting       Consular and
    Priorities**       Diplomatic                   6.9         9.5        25.6          42.0              14.6
                       Programs
                       ESF                        109.6       134.6           –        244.2             116.5
                       Human Rights and
                                                    2.1          –            –           2.1               1.7
                       Democracy Fund
                     Subtotal                    118.6       144.1         25.6        288.3             132.8

    Humanitarian       ERMA                        33.0          –            –          33.0              33.0
    Assistance         ESF                        334.7          –            –        334.7             683.0
                       Food for Peace              96.8       115.1        98.2        310.0             310.2
                       International
                                                  358.6        60.1        41.0        459.6             547.0
                       Disaster Assistance
                       MRA                         57.0        33.5        12.2        102.7             102.7
                     Subtotal                    880.1       208.6       151.3       1,240.1           1,675.9

    Total                                      2,097.8     1,312.0       202.1       3,611.9           3,277.6

Source: U.S. Embassy Islamabad.

Note: Numbers do not always sum to subtotals and totals because of rounding. A dash indicates a value of zero.

*    Obligations are reported by the fiscal year in which funds were appropriated.

†    Disbursement figures refer to funds disbursed in FYs 2010–2012 regardless of when the funds were
     appropriated or obligated. Some disbursements during this period were of funds appropriated before FY 2010.
     As a result, these figures cannot be used to determine how much of the obligated funding reported in this table
     remains unexpended.

‡    The U.S. Embassy modified its approach for reporting on sector obligations and disbursements. As result,
     obligations and disbursements that were reported under Economic Growth in past quarters are now reported
     under Stabilization.

§    DOD transferred PCF funds to USAID to support reconstruction work on the road between Peshawar and
     Torkham.

** In addition to funds from Consular and Diplomatic Programs, ESF, and the Human Rights and Democracy Fund,
     U.S. Government assistance to Pakistan for crosscutting priorities has been supported by less than $100,000 in
     Development Assistance funding.


U.S. civilian assistance funds are not distributed evenly across sectors. As shown in the following figure,
the U.S. Government has concentrated the largest share of its obligations since FY 2010 on
humanitarian assistance.

                                                                                                                  8
       Figure 1. Distribution of Civilian Assistance Obligations by Sector

                                      9%

                                                8%
                                                                     Energy
                  34%                                                Economic Growth
                                                                     Stabilization
                                                                     Education
                                                     22%             Health
                                                                     Crosscutting Priorities
                     8%                                              Humanitarian Assistance
                             9%      10%



              Source: U.S. Embassy Islamabad.


Eight federal agencies have provided civilian assistance to Pakistan. Of these, USAID and DOS are the
source of most related spending, accounting for 87 and 12 percent, respectively. Detailed information
on the distribution of U.S. assistance funds by federal agency and office appears in Appendix 1.


Energy
More than a third of Pakistanis do not have access to electricity and the nation’s overall per capita
energy consumption is among the lowest in Asia. The World Bank rates the time, cost, and procedural
requirements for a business to obtain an electrical connection in Pakistan to be among the 15 most
onerous in the world.

Pakistan’s relatively low level of demand for energy frequently outstrips its supply. Blackouts are a
common feature of daily life and have significant adverse effects on household and business consumers.
Energy price fluctuations and inconsistent supply undercut Pakistan’s industrial and agricultural
productivity and contribute to unemployment. According to the Asian Development Bank, Pakistan’s
unpredictable, severe power outages are estimated to reduce economic growth by at least 2 percent a
year. Moreover, high subsidies, low tariff collection rates, and distorted prices have discouraged private
companies from investing in energy infrastructure and building additional capacity.

The U.S. Government and other donors provide technical assistance to help the Pakistani Government
develop appropriate energy pricing, regulatory, and privatization policies and assist in implementing
Pakistan’s energy reform plan. In addition, the United States aims to increase electricity generation,
decrease transmission losses, and increase cost recovery by investing in selected energy infrastructure
and capacity-building activities.

                                                                                                        9
USAID. USAID had eight energy programs under way during the reporting period (Table 3). To meet
growing energy demands, USAID’s programs seek to help the Pakistani Government supply hydropower
by completing and rehabilitating dams and thermal power stations.

           Table 3. USAID Energy Programs as of December 31, 2012 (Unaudited)

                                                     Start   End       Implementing      Funding
      Name                      Description
                                                     Date    Date        Partner           ($)

                          Provides technical and
                          engineering support to                     Advanced
Energy Policy             USAID-funded                               Engineering
                                                     2/12    10/15                       33,336,559
Project                   infrastructure projects                    Associates
                          implemented by the                         International
                          Government of Pakistan

                          Increases hydropower                       Water and Power
Gomal Zam Dam
                          capacity and builds        1/11    9/13    Development         40,000,000
Project
                          transmission lines                         Authority (WAPDA)

                                                                     Central Power
                          Repairs and maintains a
Guddu Project                                        5/10    6/13    Generation          18,068,000
                          thermal power station
                                                                     Company Limited

                          Rehabilitates a thermal                    Jamshoro Power
Jamshoro Project                                     5/10    6/13                        18,360,000
                          power station                              Company Limited

                                                                     Northern Power
Muzaffargarh              Rehabilitates a thermal
                                                     5/10    6/13    Generation          15,193,000
Project                   power station
                                                                     Company Limited

                          Improves the
                          management capacity,
Power
                          financial systems, and                     International
Distribution                                         9/10    10/15                       71,849,409
                          billing and collection                     Resources Group
Project
                          systems of power
                          distribution companies

Satpara Dam               Increases hydropower
                                                     1/11    4/13    WAPDA               26,000,000
Project                   capacity by 17 megawatts

Tarbela Dam               Rehabilitates a
                                                     4/10    12/13   WAPDA               16,500,000
Project                   hydropower station

Source: USAID/Pakistan.




                                                                                                10
As of December 31, 2012, USAID reported that it had added a cumulative total of 805 megawatts of
capacity to Pakistan’s electrical grid through construction and rehabilitation efforts. This is equivalent to
about 7 percent of power generation reported by the Ministry of Water and Power in October 2012.

USAID also reported the following accomplishments in its portfolio of energy programs:

    Progress continued on six energy projects involving rehabilitation and construction of hydroelectric
    and thermal power plants that Secretary Clinton announced in October 2009 and July 2010. During
    the reporting period, cash reimbursements to the Government of Pakistan to support these
    activities continued. Cumulative U.S. Government reimbursements for these projects total
    approximately $111 million.

    Since early 2010, projects at the Jamshoro and Muzaffargarh thermal power plants have added
    95 megawatts and 480 megawatts, respectively, of power generation capacity. Major equipment
    replacement efforts under way at the Jamshoro facility are expected to add another 55 megawatts of
    capacity. Work at the Muzaffargarh plant has increased its power generation capacity by
    5 megawatts more than anticipated and is expected to produce additional gains in the future.

    The Gomal Zam Dam Project will provide Pakistan with 17.4 megawatts of additional generation
    capacity. Project work on the main dam and spillway and mechanical testing have been completed,
    and the installation of transmission line towers and switchyard connections is nearing completion.
    The abduction of eight WAPDA employees and the subsequent murder of one in September 2012
    have lowered the morale of workers. However, work on the project continues.

    The Satpara Dam will add about 17.6 megawatts to Pakistan’s electrical supply. Work on the dam
    has thus far added 6 megawatts of production capacity. U.S. Government financing helped complete
    construction of the dam and two of four powerhouses. Construction of the remaining
    powerhouses is about 90 percent complete.

    Work on the Tarbela Dam has increased power generation capacity by 128 megawatts, the targeted
    amount. Efforts now focus on completing the computer system to monitor and control the dam as
    well as the digital controls for the dam’s turbines. These features will contribute to the long-term
    sustainability of the power plant. At the end of the reporting period, digital controls were being
    installed and the computer system was being procured.

    In late November 2012, U.S. Ambassador Olson visited the Mangla Dam and pledged up to
    $150 million for rehabilitation activities to add 70 megawatts of power generation and extend the
    productive life of the facility.

    The Power Distribution Project has saved 79.1 megawatts of energy flow in Pakistan’s grid by
    introducing new technology and improving work practices in all nine government-owned


                                                                                                          11
   distribution companies. Project work to date will increase company revenues by $33.7 million a
   year.

   -   Power Distribution Project energy efficiency activities continued this quarter with an emphasis
       on efficient municipal water pump sets and industrial motors. Working with municipal
       governments, the project successfully installed 139 high-efficiency pumps at municipal stations in
       and around Islamabad and Karachi. These pumps will save municipalities $541,000 in electricity
       billings each year.

   -   During the quarter, project efforts to improve meter reading focused on the Peshawar Electric
       Supply Company and the Multan Electric Power Company. Activities target improved meter
       accuracy, customer billing accuracy, and theft reduction. To date, these improved meter-
       reading efforts have reduced customer complaints by 86 percent and led to the recovery of
       approximately $297,000.

   -   A pilot project with the Lahore Electric Supply Company on loss reduction and revenue
       recovery was expanded at the request of the company’s board of directors. The pilot, which
       focused on improvements to a single feeder power line and is expected to yield a 233 percent
       return on investment in 1 year, is being expanded to 17 additional feeder lines. When fieldwork
       ends in June 2013, the project estimates that the electric supply company will save an estimated
       $1 million annually through decreased losses and increased revenue.

   -   This quarter, 1,200 power utility employees received training to improve operational
       performance, customer service, and financial results. Training activities this quarter involved
       power system management, communications, human resource management, safety, operations
       and maintenance, gender issues, and other areas.

   -   Instructors trained under the Power Distribution Project conducted safety training for 200
       more distribution company linemen this quarter. Distribution companies continue to conduct
       the training program using their own resources, to extend it to the remaining linemen. Serious
       injuries and deaths of distribution company linemen have dropped by 60 percent since the
       training program began, and no linemen who received the safety training were involved in any of
       the reported accidents.

USAID reported that implementing energy projects at the Guddu, Jamshoro, and Muzaffargarh thermal
power plants remains a challenge. These generating companies are having difficulty completing their
procurements, which slows project disbursements. In response, USAID has increased capacity building
for thermal plant personnel in procurement, financial and human resources, and administrative
management. In April 2012, USAID also amended the agreements for the three thermal power plants to
comply with Pakistani Government banking procedures and to guarantee that sufficient funds are
available to implementers for required foreign exchange procurements. These changes have resulted in
an increase of $30 million in disbursements to the Government of Pakistan since the agreements were
amended. USAID has also worked closely with Pakistan’s Ministry of Water and Power and the
                                                                                                      12
Economic Affairs Division of the Ministry of Economic Affairs and Statistics to address project
bottlenecks.


Economic Growth

Over the past 3 years, Pakistan has experienced high inflation and relatively low or stagnant economic
growth—stagflation. The combination of stagflation, falling exports, and multibillion-dollar repayments
to the International Monetary Fund has reduced the value of the rupee, and these factors could
contribute to balance-of-payments problems for Pakistan.

Sixty percent of Pakistanis live on $2 or less a day, and more than one in five live on less than $1.25 a
day. Only half of Pakistanis over the age of 15 are employed and, although small businesses provide the
majority of new employment, they lack access to finance. Similarly, the agriculture sector, which
accounts for 21 percent of Pakistan’s gross domestic product and employs 44 percent of the labor force,
is constrained by insufficient investment and policy limitations.

The U.S. Government’s assistance program for Pakistan is designed to stimulate broad-based, inclusive
economic growth, particularly in agriculture, trade, and entrepreneurship, through projects that support
policy reform, improve access to finance, improve trade conditions, assist in workforce development,
increase agricultural productivity, and improve water management. DOC, USAID, USDA, and USTDA
support programs under this category of assistance.

DOC. DOC has six programs and activities that support the Embassy’s economic growth initiative.

    The Market Research Program aims to provide interested investors with information about
    promising sectors of Pakistan’s economy.

    DOC prepares preliminary information memorandums to highlight projects with high potential for
    financial return.

    DOC sponsors investment promotion events and business exchanges between Pakistan and the
    United States under its Event Management Program. These exchanges include DOC-led Pakistani
    delegations to trade shows and industry conferences in the United States and to regional trade
    shows with many U.S. exhibitors.

    The Commercial Law Development Program provides technical assistance in commercial law to
    foreign governments and private sector representatives to support their economic development
    goals.

    The Business Training for Export Diversification Program promotes the expansion and
    diversification of Pakistani exports to the United States through training events and exchanges.


                                                                                                      13
   DOC’s Pakistan Special American Business Internship Training is designed to accelerate Pakistani
   export diversification and to connect Pakistani entrepreneurs with the business partners and
   suppliers they will need to help sustain Pakistan’s economic growth.

DOC reported the following Commercial Law Development Program achievements during the quarter:

   In September, DOC led a delegation of Pakistani officials and university and private sector
   representatives to the United States to learn more about university-to-industry partnerships for
   commercializing university research. The program gave participants a deeper understanding of
   the policies and tools used by U.S. universities to develop research solutions for industry needs.
   At the end of the program, two industry representatives offered participating university officials
   seed capital for start-up projects and collaboration on a robotics incubator.

   In October, the program sponsored a 2-week technology transfer exchange for a delegation from
   Pakistan's Higher Education Commission (HEC) and four science and technology
   universities. Since 2010, the program introduced faculty from select science and technology
   universities in Pakistan to technology transfer organizations and technology incubators at U.S.
   universities that showcase best practices for promoting innovation and entrepreneurship. During
   this most recent exchange, the delegation participated in an informational session on intellectual
   property at the United States Patent and Trademark Office that covered patents, trademarks,
   copyrights, and trade secrets. The delegation then visited Princeton University, Oklahoma State
   University, and Carnegie Mellon University to learn about the innovation and entrepreneurship
   policies, facilities, and human capital they have in place. Participants were also introduced to
   different approaches for facilitating university, faculty, and student innovation.

USAID. USAID currently has ten programs and three transfers of funds to other agencies (Table 4)
that contribute to agricultural and economic growth objectives. These programs support trade,
development of provincial irrigation systems, and the production and sale of agricultural commodities,
among other activities.

    Table 4. USAID Programs to Promote Economic Growth as of December 31, 2012
                                   (Unaudited)

                                                  Start     End        Implementing          Funding
      Name                 Description
                                                  Date      Date         Partner               ($)


                     Increases productivity,
Agribusiness         product quality, and                            Agribusiness
                                                  11/11     11/16                             27,300,000
Project              competitiveness of                              Support Fund
                     agribusiness value chains*




                                                                                                        14
                                                  Start   End       Implementing       Funding
      Name                 Description
                                                  Date    Date        Partner            ($)

                     Strengthens policy
                                                                  International Food
Agriculture Policy   analysis for food security
                                                  7/11    7/15    Policy Research      20,800,000
Project              and macroeconomic
                                                                  Institute
                     stability

                                                                  United Nations
Balochistan
                     Helps improve livelihoods                    (UN) Food and
Agriculture                                       1/09    12/15                        15,400,000
                     and food security                            Agriculture
Project
                                                                  Organization

                                                                  Dairy and Rural
                     Improves milk production
Dairy Project                                     7/11    7/14    Development           6,926,744
                     and increases sales
                                                                  Foundation

                                                                  Mennonite
                     Supports women’s
Entrepreneurs                                                     Economic
                     microenterprises in          6/09    6/14                         22,006,212
Project                                                           Development
                     vulnerable areas
                                                                  Associates

                     Assists small and
                     medium-size enterprises
                     in areas vulnerable to
Firms Project                                     5/09    4/13    Chemonics            72,257,148
                     conflict to help them
                     become internationally
                     competitive

                     Provides flood control
Gomal Zam            and irrigation water to
                                                  10/11   9/13    WAPDA                73,151,000
Irrigation Project   191,000 acres to increase
                     agricultural output

                     Provides technical
                     expertise to support the
                     establishment of public-                     International
Grain Storage
                     private partnerships for     4/11    6/13    Finance               2,500,000
Project
                     managing, handling, and                      Corporation
                     storing strategic grain
                     reserves

                     Provides flood control
Satpara Irrigation   and irrigation water to                      Aga Khan
                                                  3/12    3/17                         10,928,595
Project              15,500 acres to increase                     Foundation
                     agricultural output


                                                                                              15
                                                        Start    End          Implementing       Funding
      Name                      Description
                                                        Date     Date           Partner            ($)

                          Improves customs
                          procedures and the
                          Pakistani Commercial
Trade Project                                           6/09      6/13      Deloitte             31,820,577
                          Service to increase
                          exports and trade at the
                          Afghan border

                          Provides business and
                          legal capacity building and
                          exchanges for Pakistani
                          entrepreneurs and                     Reviewed
Transfer to DOC                                         2011                DOC                   4,000,000
                          representatives of                     annually
                          government ministries,
                          universities, and legal and
                          business institutions

                          Improves production and
                          increases sales of
                          commodities, enhances
                                                                Reviewed
Transfer to USDA          government research and       2009                USDA                 50,000,000
                                                                 annually
                          extension work, and
                          helps eradicate
                          agricultural diseases

                          Conducts feasibility
                          studies and provides
Transfer to               technical assistance in               Reviewed
                                                        2009                USTDA                 8,000,000
USTDA                     transportation, energy,                annually
                          information technology,
                          and food security

Source: USAID/Pakistan.

* A value chain includes all activities required to produce a product or service and deliver it to the final
  customer. Value chains include activities such as production, marketing, and distribution.


As of December 31, 2012, USAID reported that 802,662 rural households had benefited directly from
U.S. Government assistance. USAID also reported the following developments and achievements in its
portfolio of economic growth and agricultural programs:

    As a result of Agribusiness Project efforts, farmers are now applying quality-enhancing production
    and processing techniques on 420 acres of land, thereby increasing their opportunities to export. In
    addition, USAID has approved 340 project subgrants to help small agribusinesses to develop

                                                                                                         16
capacity—for example, to preserve milk and to dry fruits and vegetables. Approximately 80 percent
of these subgrants have been awarded to agribusinesses initiated by women. During the quarter,
the project installed 20 greenhouse tunnels for off-season tomato and cucumber projects in rural
areas near Islamabad, and hosted a training and demonstration event for representatives of farm
service centers on irrigation techniques and off-season vegetable production.

The Agriculture Policy Project received 220 proposals for a second round of competitive grants and
is evaluating those that are eligible. The project completed fieldwork for the next round of its rural
household survey in mid-November. This next round of surveys will focus on water management,
agricultural production challenges, and adaptation to climate change. In mid-December, the project
sponsored a conference in cooperation with Pakistan’s Planning Commission at which international
and local scholars presented research on rural poverty, development strategies, agricultural taxation,
and electricity and wheat subsidies.

The Balochistan Agriculture Project provided 118 metric tons of wheat seed to farmers on a
50 percent cost-sharing basis, demonstrated drill-sowing techniques to farmers in five communities
on 36 acres, provided 2,000 kilograms of animal feed to farmers, leveled 395 acres of land, and
rehabilitated three underground irrigation systems. The project also established a pipeline system
and a water reservoir.

During the quarter, the Dairy Project trained 1,077 farmers in farm and livestock management, 79
technicians in artificial insemination, and 228 female extension workers in livestock management and
milk-marketing techniques. Farmers who have received assistance under the project have reported
a 10 percent increase in milk production and an average increase of $37 in monthly income.

The Entrepreneurs Project trained 8,885 producers in improved production practices during the
quarter, bringing the total number of microenterprise owners assisted by this project to 40,214,
85 percent of whom are women. During the quarter, the project signed a memorandum of
cooperation with Pakistan’s leading microfinance institution, Khushhali Bank Limited, to give project
beneficiaries access to sustainable access to finance.          This access is critical to helping
microenterprise owners grow their businesses and improve their capacity to meet market demands.
The project also carried out a rapid assessment survey in the village of Kooh in the Swat District of
Khyber Pakhtunkhwa to measure the effectiveness of interventions in the medicinal and aromatic
plant value chain. The survey found that average net sales increased by 107 percent per beneficiary
because of quality, quantity, and pricing improvements to their businesses.

The Firms Project continues to provide support to more than 2,500 small and medium-size
enterprises in 11 sectors of the economy by improving access to technology, markets, and finance,
and by developing business skills. During the quarter, the project helped ship samples of dried
mango products, including dried mango slices, mango leather, and mango candy, from Punjab to the
United States and Europe. Meanwhile, the project completed an analysis of the national policy, legal,



                                                                                                   17
    and regulatory environment for small to medium-size enterprises, and an institutional assessment of
    Pakistan’s Small and Medium Enterprises Development Authority.

    Work by WAPDA on the Gomal Zam Irrigation Project continued, but the pace slowed during the
    quarter because of delays in WAPDA’s payments to the project contractor. WAPDA completed
    work on flood protection works and had finished 58 percent of planned drainage works. By the end
    of the calendar year, 60 percent of overall project work had been completed.

    The Grain Storage Project opened bids for work in Punjab Province to prequalified bidders during
    the reporting period. Because two of three prequalified bidders for work in Sindh Province
    withdrew their bids, the project is reducing the scope of activities in the province and plans to
    reopen bids in early 2013.

    The Satpara Irrigation Project is developing farm irrigation infrastructure that will meet commercial
    standards for the horticultural and dairy industries on 15,500 acres of farmland. Because of harsh
    winter weather, physical infrastructure work on the project could not proceed during the quarter.
    Nonetheless, activities progressed: the project solicited and evaluated proposals to prepare a master
    plan for on-farm irrigation systems. In addition, the project formed 25 water users’ associations,
    initiated a baseline survey, and conducted value chain analyses in the fruit and vegetable sector.

    During the quarter, the Trade Project began assessing the capabilities and training needs of
    Pakistan’s National Tariff Commission as part of the effort to strengthen its capacity to administer
    trade defense laws that comply with World Trade Organization rules. At the request of Pakistan’s
    Ministry of Commerce, the project is also expanding research on Pakistan-India trade liberalization.
    It is assessing the potential for trade within industries and services as well as the impact of the
    recent revisions to India’s investment policy.

USAID reported that security conditions and delayed visas posed challenges in implementing economic
growth and agricultural programs. In late March, a Balochistan Agriculture Project vehicle was attacked;
two people associated with the project were killed, and a third was injured. In mid-August, eight
workers on the Gomal Zam Dam were kidnapped, and one was subsequently killed. Additionally, the
USAID mission noted that obtaining long-term visas for expatriate implementers has been difficult.

USDA. USDA continues to manage agricultural capacity building and development programs with
funding from USAID. These programs are designed to increase agricultural productivity and improve
opportunities for international trade through technical exchanges, agricultural research, and control of
plant and animal diseases. USDA programs are implemented through international organizations and
U.S. land grant universities that work with Pakistani Government agencies, universities, and institutions,
and agricultural research groups to implement program activities. USDA also continues to work with
provincial government authorities and engage with the new Ministry of National Food Security and
Research.



                                                                                                       18
USDA reported the following examples of progress and success for the quarter:

    Pakistani scientists are working with international counterparts under the Wheat Productivity
    Enhancement Project to reduce the effects of stem rust on Pakistan’s wheat harvests. Participating
    scientists in Pakistan identified barberry—a host for wheat stem rust—in multiple regions of
    Pakistan. They worked with the International Maize and Wheat Improvement Center and USDA’s
    Agricultural Research Service to collect and evaluate wheat stem rust samples, identify pathogen
    strains, and analyze wheat genes for disease resistance. In a related effort, USDA-funded
    construction work at the Cereal Disease Research Program facility in Murree, Pakistan, proceeded
    on schedule and was about 90 percent complete by the end of the quarter.

    Scientists at Pakistan’s National Agricultural Research Centre collected and analyzed foot and mouth
    disease samples under the Research Capacity Building for Foot-and-Mouth Disease Control Project.
    In December, a research fellow from USDA’s Agricultural Research Service travelled to Pakistan to
    assist the scientists with sample analysis and with establish a process for entering results into a
    global system for sharing this information. Meanwhile, the project provided support for studies to
    determine how effectively different vaccines combat local strains of foot-and-mouth disease. The
    project’s chief of party presented observations on the status the disease and control efforts in
    Pakistan at the UN Food and Agriculture Organization’s worldwide foot-and-mouth disease
    consortium meeting in Rome.

    At the National Veterinary Laboratories, USDA sponsored refresher training for provincial
    veterinarians on testing for foot-and-mouth disease through enzyme-linked immunosorbent assay
    and provided participants with diagnostic kits. The project also conducted 7 training sessions on
    diagnosis and surveillance techniques and 14 workshops for farmers at different locations around the
    country.

    USDA’s feeding trial for tilapia farming concluded. A USDA-sponsored collaboration between
    Pakistan’s Fisheries Development Board and the American Soybean Association, the feeding trial was
    carried out at seven pilot sites in Punjab and Sindh Provinces. The pilot sites produced three times
    more fish per unit area than did fish-farming sites in Pakistan that employ traditional farming and
    feeding methods.

    During the quarter, USDA also sponsored several international training opportunities for Pakistani
    scientists:

    -   Eight Borlaug Fellows completed their fellowships in Kenya with International Maize and Wheat
        Improvement Center pathologists to evaluate Pakistani wheat varieties for disease resistance.5


5
  USDA selects Borlaug Fellows from among entry-level and mid-career agricultural researchers and policy makers
in developing and middle-income countries. Borlaug Fellows receive up to 12 weeks of U.S.-based training a year.


                                                                                                             19
    -   Three Pakistani fellowship recipients continued training on molecular and genomic analysis of
        the cotton leaf curl virus and resistance to it among cotton varieties at USDA’s Agricultural
        Research Service, Texas A&M University, and the University of Arizona.

    Under the Watershed Rehabilitation Program, demonstrations of irrigation system construction,
    rainwater harvesting dams, and water and soil conservation devices continued at 30 demonstration
    sites with six Pakistani agricultural institutions.

USTDA. USTDA activities improve infrastructure in energy, transportation, and information
technology and link Pakistani partners with U.S. exporters and American companies offering project
solutions. USTDA measures the success of its activities both in terms of exports of U.S. goods and
services and in terms of positive development effects in Pakistan.

USTDA works with Pakistani grantees in the public and private sectors to conduct feasibility studies and
technical assistance activities. USTDA competitively selects U.S. contractors to perform expert
assessments and reverse trade missions.6

USTDA reported that its private-sector Pakistani partner Warid Telecom and U.S. contractor NFB
Consulting began work on a USTDA-funded feasibility study and pilot project on back-up power
conversion to methanol fuel cells. This project will determine the economic and operational feasibility
of using methanol-based fuel cells and sodium-metal halide batteries to reduce Warid Telecom’s energy
consumption and improve the reliability of its network.


Stabilization

The U.S. Government seeks to enhance stability in border areas and regions vulnerable to violent
extremism. The U.S. Government supports the Government of Pakistan in the Federally Administered
Tribal Areas (FATA) and Khyber Pakhtunkhwa through short-term development activities, long-term
investments in infrastructure, and support for incremental improvements in governance. Stabilization
activities are guided by the U.S. Government’s strategy for stabilization of Pakistan and closely aligned
with USAID’s 2010 Post-Crisis Needs Assessment for Khyber Pakhtunkhwa and FATA. Activities include
improving the responsiveness and effectiveness of the Pakistani Government in restoring citizen trust,
stimulating employment and livelihood opportunities, ensuring the delivery of basic services, countering
radicalization, and fostering reconciliation. DOS’s Bureau of International Narcotics and Law Enforcement
Affairs (INL) and the U.S. Embassy’s Political Section (POL) and Regional Security Office (RSO) support
assistance programs in this category, as do USAID and USIP.



6
  Reverse trade missions are trade delegation visits to the United States that enable foreign delegates to observe
the design, manufacture, demonstration, and operation of U.S. goods and services that could help them achieve
development goals.


                                                                                                               20
INL. INL has seven programs in Pakistan that support improved security, legal reforms, and
counternarcotics. Aside from the limited direct assistance it provides to Pakistani NGOs to reduce
demand for drugs, INL implements all of its projects in partnership with the Government of Pakistan.
Partners include the Ministry of Narcotics Control, the Ministry of Interior, the FATA Secretariat,
Pakistani police, and other civilian law enforcement agencies.

INL reported the following recent program developments:

     Aviation Program. INL’s Air Wing continued to provide air support to Ministry of Interior agencies,
     including the Pakistani police, Khyber Pakhtunkhwa and Balochistan Frontier Corps, and Punjab and
     Sindh Rangers, as well as several other agencies. The Air Wing provided aerial coverage for police
     oversight during the peak celebratory days of the holy month of Muharram and flew a total of 658
     hours during the quarter.

     Corrections Program. A second group of Khyber Pakhtunkhwa provincial government officials
     attended classes at the International Corrections Management Training Center in Colorado. The
     center provides instruction on international standards and best practices in prison administration,
     including basic security procedures, external threat management, emergency response, prisoner
     classification, logistics, and crowd control. In total, 16 Pakistani officials have benefitted from the
     center’s training. In addition, the UN Office on Drugs and Crime (UNODC) completed the INL-
     funded drafting of Pakistan’s new prison rules, which UNODC then distributed to senior provincial
     prison officials for review.

     Counternarcotics Program. Pakistan’s Anti-Narcotics Force maintained the amount of heroin it seized
     despite inconsistent collaboration with the U.S. Drug Enforcement Agency and delays in INL
     financial support triggered by the program manager’s delayed arrival in-country. Meanwhile, the
     Embassy’s counternarcotics officer began discussions with Pakistan’s Customs and Maritime Security
     Agency on possible U.S. assistance with tracking and intercepting small fishing vessels trafficking
     drugs along the Makran Coast.

     On the demand reduction front, the Colombo Plan7 certified 13 master trainers during the first
     phase of its INL-funded train-the-trainer program on the treatment of drug addiction. The
     Colombo Plan program will eventually train 120 drug treatment specialists to help serve Pakistan’s
     5 million drug users, while UNODC, which finished administering its INL-funded nationwide survey
     of drug users, will provide reliable information on the number of addicts in Pakistan, the drugs they
     use, and the demographic groups they represent.

     Crop Control and Area Development Project, Border Security, and Infrastructure Program. During the
     reporting period, construction proceeded on a number of facilities to enhance border security. The

 7
   The Colombo Plan is a regional intergovernmental organization that promotes economic and social development
 in Asia and the Pacific through technical cooperation and information sharing.


                                                                                                           21
   program completed work on three Frontier Corps border posts in Chitral District in Khyber
   Pakhtunkhwa and one in FATA’s Khyber Agency. The program also completed 6 kilometers of road
   in the poppy-growing areas of Khyber Agency and in the Tor Ghar and Kohistan Districts of Khyber
   Pakhtunkhwa. Major projects at the Spina Thana Operations Center and the Joint Police Training
   Center in Nowshera are on schedule and work on the Javed Iqbal Police Lines (headquarters and
   barracks) in Mingora, Swat, is expected to conclude before the July 2013 deadline. In addition to
   these projects, INL discussed plans to fund the construction of a second phase of the Joint Police
   Training Center and Police Lines in Daggar, Buner.

   Following several contracting and procurement delays, construction work on the Peshawar
   Southern Ring Road is back on track. Work on the Ring Road is 40 percent complete and is
   expected to end in September 2013. Work to widen the 14 Ring Road bridges has started, and
   construction of 42 kilometers of the Kanju-Madyan Road in Swat is scheduled for completion in
   April 2013.

   Police Assistance Program. INL seeks to build momentum for law enforcement reforms by providing
   training and equipment to law enforcement agencies throughout Pakistan. During the reporting
   period, the program delivered an instructor development class for 30 Pakistani police academy
   instructors in partnership with the Department of Justice’s International Criminal Investigative
   Training Assistance Program (ICITAP). The first component of a larger instructor development
   program developed for authorities in Sindh Province, the class received attention from the highest
   levels of the Pakistani Government and positive media coverage.              INL anticipates that
   300 instructors will eventually graduate from the program.

   During the reporting period, INL provided $9.0 million in equipment to Pakistani law enforcement
   authorities. In total, INL delivered 142 pick-up trucks, 17 armored personnel carriers, and 4 police
   vans, as well as communications equipment, personal protective equipment, and crime scene
   cameras to authorities in Balochistan, Sindh, and Khyber Pakhtunkhwa. Several deliveries during the
   period were designed to improve the standing of Sindh’s women’s police service.

   INL-supplied commodities and equipment have helped Pakistani authorities increase security patrols,
   reduce emergency response times, and reduce risks to officers during dangerous operations.

   ICITAP Training Program. During the reporting period, ICITAP organized an exchange for 11 senior
   Pakistani police officers that included attendance at the International Chiefs of Police Conference in
   San Diego, California. ICITAP also provided forensics instruction to 18 antiterrorism court judges
   from across the country and finished training the first group of Islamabad Police to become firearms
   simulator instructors. During the calendar year, ICITAP trained 294 Pakistani police officers.

Visa delays continued to slow INL assistance efforts in Pakistan. Air support activities were reduced
after six helicopters were placed in storage in early November because of delays obtaining visas for Air
Wing support contractors and INL advisory personnel. Meanwhile, the Rule of Law Program was


                                                                                                      22
unable to hold any training events during the quarter; the new program coordinator has not been able
to obtain a visa since July 2012.

Security conditions have also complicated INL program implementation. Some INL personnel have been
withdrawn from Peshawar, and others are working limited, intermittent office hours because of security
concerns. Travel on the part of program staff in FATA and Khyber Pakhtunkhwa is restricted, and
access to program sites is limited.

POL. The U.S. Embassy’s Political Section oversees implementation of the Export Control and Related
Border Security Assistance Program (EXBS) in Pakistan.

EXBS is designed to help participating countries improve their strategic trade and border control
systems. In Pakistan, EXBS assists the government in stemming the proliferation of weapons of mass
destruction and their delivery systems and preventing irresponsible transfers of conventional weapons.

Since 2004, Pakistan has made progress with EXBS assistance in strengthening its strategic trade
controls through legal and regulatory reforms and the development of licensing capability. Building on
these successes, EXBS aims to develop and expand the capacity of Pakistani law enforcement agencies to
counter the proliferation of weapons of mass destruction and related materials.

Although Pakistan has made significant strides in adopting strategic trade control legislation, Pakistan’s
national control list omits several commodities and technologies controlled under multilateral export
control regimes, and this remains a concern. EXBS therefore promotes Pakistan’s adoption of a
comprehensive national control list that includes all commodities covered under the control lists of the
Nuclear Suppliers Group, Missile Technology Control Regime, Wassenaar Arrangement, and Australia
Group.

Pakistani border security agencies have poor communications infrastructure, lack needed equipment,
and face challenges in coordination across agency lines. Customs officer training is underdeveloped and
depends on foreign support.

Accordingly, while maintaining its focus on trade controls, EXBS will increase the delivery of training and
equipment to Pakistani customs agencies, especially the Federal Board of Revenue. In addition, the
program will continue to support cross-border cooperation between Afghan and Pakistani agencies
engaged in trade control regulation and enforcement. The Department of Homeland Security provides
training in support of EXBS activities in these areas.

RSO. RSO contributes to improved security and legal institutions in Pakistan through the
Antiterrorism Assistance (ATA) Program. The program equips Pakistani law enforcement personnel to
detect, deter, and respond to terrorist threats. It provides a full range of tactical and investigative
courses and support to officials from all the country’s provinces and the Frontier Constabulary. The
program’s focus in Pakistan is on building law enforcement capacity to secure land borders and


                                                                                                        23
encourage greater cooperation between police and prosecutors, particularly in terrorism-related
investigations.

DOS reported that Pakistani officers are enthusiastic about receiving ATA courses and equipment,
learning counterterrorism skills, and using those skills in their daily work. Officers trained by ATA in
explosive detection have used their training effectively in high-threat assignments. In a recent case,
members of an ATA-trained bomb squad in Karachi saved lives when they spotted a secondary
explosive device while responding to an explosion. ATA assistance has also enabled authorities to
expand institutional capacity to respond to threats. Railway Police in Rawalpindi, for example,
established a bomb unit using equipment and training that ATA provided.

Notwithstanding these successes, DOS reported that difficulties obtaining visas for instructors
continued to hinder program implementation. Although as many as 38 instructor visa applications were
sent to the Pakistani Embassy for approval during the reporting period, no ATA instructors received
visas to travel to Pakistan in time to provide instruction as planned. As a result, 14 scheduled courses
were postponed, and none were delivered.

The program is working to resolve difficulties in obtaining instructor visas. The American Embassy in
Islamabad had numerous meetings with officials in the Pakistan Ministry of Interior and Ministry of
Foreign Affairs about delayed visas, and ATA representatives in Washington have met with Pakistani
officials at the Pakistani Embassy on the matter. On December 21, 2012, ATA received four instructor
passports with visas.

USAID. USAID had 13 stabilization programs and 2 related monitoring activities under way at the end
of the quarter (Table 5). These programs provide cash transfers to compensate for housing damage,
deliver vocational training, and fund improvements in roads and electricity generation.

       Table 5. USAID Stabilization Programs as of December 31, 2012 (Unaudited)

                                                 Start      End         Implementing         Funding
      Name                  Description
                                                 Date       Date          Partner              ($)

Benazir Income
                      Provides cash assistance                        BISP, Government
Support Program                                  6/09        6/10                            160,000,000
                      to needy families                               of Pakistan
(BISP)*

                                                                      National Database
Citizens’ Damage      Provides cash assistance                        and Registration
Compensation          to flood-affected          6/11        6/12     Authority,             190,000,000
Fund*                 households                                      Government of
                                                                      Pakistan




                                                                                                     24
                                                    Start   End       Implementing         Funding
      Name                 Description
                                                    Date    Date        Partner              ($)

                     Provides medical, psycho-
                     social, and livelihoods
Conflict Victims     support to Pakistanis                          International Relief
                                                    4/12    4/15                            20,245,806
Support Project      directly affected by                           and Development
                     violence in FATA and
                     Khyber Pakhtunkhwa

                     Provides equipment and
                     mobile health units,
FATA Child
                     reconstructs facilities, and   9/06    1/13             ***            26,150,000
Health Project
                     trains health-care
                     providers

                     Improves access to
FATA / Khyber        community-based
Pakhtunkhwa          integrated family planning     9/12    9/17             ***             5,000,000
Health Program       and maternal and child
                     health services

                     Improves roads; water
FATA                 infrastructure; and
Infrastructure       electricity generation,        12/09   12/14   FATA Secretariat       278,686,537
Program              distribution, and
                     transmission

                     Increases the Secretariat’s
                     capacity in participatory
FATA Institutional
                     planning, management,
Strengthening                                       8/11    9/16             ***             9,998,085
                     and oversight of
Project
                     stabilization and
                     development activities

                     Provides grants for the
Khyber               restoration of damaged
Pakhtunkhwa,         infrastructure and
FATA, and            disrupted services,
                                                    7/10    12/15   World Bank              25,000,000
Balochistan          improvement of
Multi-Donor Trust    government services, and
     †
Fund                 maintenance of
                     community livelihoods




                                                                                                   25
                                                       Start      End          Implementing            Funding
       Name                     Description
                                                       Date       Date           Partner                 ($)

                          Supports the
                                                                             Government of
                          reconstruction and
                                                                             Khyber
                          recovery of conflict-
Khyber                                                                       Pakhtunkhwa’s
                          affected districts and
Pakhtunkhwa                                                                  Provincial
                          increases capacity for       3/10       12/14                               105,383,047
Reconstruction                                                               Reconstruction,
                          management and
Program                                                                      Rehabilitation and
                          oversight of stabilization
                                                                             Settlement
                          and development
                                                                             Authority (PaRRSA)
                          activities

Malakand and              Provides housing damage
FATA Housing              assistance through a cash    6/10        9/12      PaRRSA                     65,000,000
Support Program*          transfer

                          Supports monitoring and
Monitoring and            verification of USAID
                                                       12/09      12/14               ***                5,786,536
Evaluation – FATA         investments in road and
                          electricity infrastructure

                          Supports monitoring and
Monitoring and
                          verification of USAID
Evaluation –                                           4/10       12/14               ***                5,760,000
                          investments in small-scale
Malakand
                          infrastructure

                          Supports conditions for
Pakistan                  stability and development
                                                                             USAID Office of
Transition                in conflict-prone and        11/07      12/15                               207,076,547
                                                                             Transition Initiatives
Initiative                other priority areas of
                          Pakistan

                          Funds the reconstruction
Peshawar-                 of the Peshawar-Torkham
                                                       9/12        9/14               ***               70,000,000
Torkham Road              Highway in Khyber
                          Pakhtunkhwa

Radio
Transmitters in
                          Provides radio
FATA and Khyber                                        6/10        4/13               ***                8,656,471
                          transmitters
Pakhtunkhwa
Project

Source: USAID/Pakistan.
Note: A triple asterisk (***) indicates the name of a USAID implementing partner withheld for security reasons.

                                                                                                                  26
*   USAID has fully disbursed assistance dollars to BISP, the Citizens’ Damage Compensation Fund, and the
    Malakand and FATA Housing Support Program but continues to monitor rupee disbursements to beneficiaries.
†   USAID has also fully disbursed assistance dollars to the Khyber Pakhtunkhwa, FATA, and Balochistan Multi-
    Donor Trust Fund but continues to monitor project implementation activities.


As of December 31, 2012, USAID reported that 574 kilometers of road had been constructed or
repaired with U.S. Government assistance. USAID also reported the following program developments
in its stabilization portfolio for the quarter:

    The Child Protection Program, which focused on communities that have been the subject of conflict
    and violence, concluded at the end of the reporting period. Major program accomplishments
    include:

    -    Establishing 30 child protection centers that provide shelter, education, counseling, and life skills
         services to children. These centers registered 122,894 children and 4,910 women and provided
         vocational skills training skills to 5,065 adolescents and 1,521 women in partnership with social
         welfare departments.

    -    Providing cash assistance to 8,567 families with 29,064 vulnerable children through a benefit
         transfer system that employed biometric smart cards.

    -    Helping increase official registration through the National Database and Registration Authority.
         Database registrations grew to 123,107 children under the program.

         Establishing a child protection case management system to help monitor child protection cases
         and assess the needs of vulnerable children and women. The system contains information on
         27,987 children and 2,446 women.

    -    Engaging community protection units in registering and monitoring orphaned children and
         children living in residential care facilities. Under the program, 2,176 orphaned children and 525
         children in residential care facilities were registered for educational and health assistance and life
         skill services.

    -    Registering 152 children associated with militant groups for rehabilitation and social
         reintegration services, and reintegrating 68 others into their families and communities. Of these
         children, 52 enrolled in local schools and colleges, 18 were placed in advanced vocational
         courses, and 34 completed job skills courses.

    -    Improving protective services for children without parental care—including orphans, and
         abandoned and abused children—by strengthening community-based care and building Social
         Welfare Department and Child Welfare and Protection Commission capacity.

    -    Forming child protection committees and community-based organizations in each district in
         which the program operated to help sustain program accomplishments. Child protection
                                                                                                            27
    committees have mobilized 180 volunteers to work in their communities and support nearby
    child protection centers.

The Conflict Victims Support Project is designed to assist approximately 4,500 families affected by
conflict-related violence in FATA and Khyber Pakhtunkhwa. Project agreements have been signed
with the FATA Secretariat and the Planning and Development Department of the Government of
Khyber Pakhtunkhwa, and the project has established five community advisory committees to
promote local ownership of project activities and engage the community in verifying beneficiary
eligibility. The project is in the process of developing a comprehensive database of conflict victims in
the region and has already provided economic and medical assistance to identified victims as part of
its pilot phase, which began in August 2012.

The FATA Child Health Project, which was launched in cooperation with the FATA Health
Directorate in December 2006, was scheduled to end in January 2013. The project worked to
increase the use of key health services and instill behaviors that support the health and development
of children. In total, the project has completed construction work on 13 health facilities. During
the quarter, the project reached:

    74,669 mothers and children through 656 Health Immunization and Nutrition Days.

    20,988 people through 195 mobile health unit visits.

    17,126 women through 1,482 awareness sessions conducted by female health workers.

    5,260 students through 53 sessions at schools on health issues.

    19,099 men through 1,704 sessions in all FATA agencies to sensitize them to health issues.

    32 traditional birth attendants through training on sanitary delivery practices.

    22 health-care providers through training on integrated management of neonatal and childhood
    illness.

    111 female health workers through nine training sessions on integrated community management
    of neonatal and childhood illness.

On September 30, 2012, USAID awarded its new FATA / Khyber Pakhtunkhwa Health Program,
which is expected to begin when the current FATA Child Health Project ends. A memorandum of
understanding between the project implementer and local authorities was in process, and the official
program launch in coordination with the Government of Pakistan was scheduled for January 2013.

To date, the FATA Infrastructure Program has completed work on 280 kilometers of road.

                                                                                                     28
The FATA Institutional Strengthening Project reported several accomplishments:

–   Draft local government regulations for FATA developed under the project were presented to
    the President of Pakistan following their approval by the FATA Secretariat, FATA
    parliamentarians, the Governor of Khyber Pakhtunkhwa, and the Ministry of States and Frontier
    Regions.

–   The project began installing a file tracking system for the Secretariat and started implementing
    automated project design and planning software.

–   Project staff began developing performance indicators for the Secretariat in line with the
    recently approved monitoring framework.

–   FATA Secretariat procedures for selecting beneficiaries of income supplements funded through
    religious taxes (zakat) were finalized with project assistance, and training on their
    implementation began.

–   The FATA Secretariat approved the information technology policy developed under the project,
    and project staff worked on an action plan for implementing it.

The Malakand and FATA Housing Support Program compensates beneficiaries whose houses were
damaged during the militancy and ensuing military operations that concluded in 2009. During the
quarter, the program made additional disbursements in Bajaur Agency and initiated a survey in
FATA’s Mohmand Agency to determine whether standard operating procedures for determining
beneficiary eligibility were followed. However, claim verification efforts in Bajaur and Mohmand
agencies were constrained by security conditions and military operations.

The Khyber Pakhtunkhwa Reconstruction Program continued to support reconstruction and
recovery efforts in districts affected by conflict and flooding. During the quarter, USAID signed an
implementation letter with PaRRSA for health activities and was in the process of signing an
implementation letter for work on an integrated government complex in Kabbal. Meanwhile,
rehabilitation and reconstruction of the Amandara and Munda Headworks, health facilities, and the
Khwazakhela Bridge progressed, with the former nearing completion. In addition, the program
completed construction of 30 schools.

The Pakistan Transition Initiative collaborated with the National Geographic Society to organize a
photo camp for 16 youths from FATA who aspire to be photojournalists. The camp was designed
to enhance participants’ professional photography skills to enable them to better tell their stories
through images. An exhibition of their work was held in Islamabad in October, and another is
planned in Washington, D.C., next spring. In addition, the Pakistan Transition Initiative expanded its
presence to Karachi and southern Punjab as part of the Pakistan Expanded Regional Stabilization
Initiative, an interagency effort to counter violent extremism in select districts of Pakistan.

                                                                                                   29
    USAID-funded construction activity on the Peshawar-Torkham Road (a section of National Highway
    N-5) began during the reporting period.

    The Peshawar City Court lifted a stay blocking access to the Peshawar site for the Radio
    Transmitters Project. Radio transmitters, control rooms, and equipment containers at the site were
    unsealed in early November 2012, and work resumed on the tower foundation, anchor block
    reconstruction, site clearing, and installation of ground station equipment. Equipment for work on
    the Dera Ismail Khan site was expected to arrive in mid-January 2013. Expatriate personnel working
    on the project received the required visas and travel permits during the reporting period.

However, USAID also reported continuing challenges to the Radio Transmitters Project. The original
U.S. subcontractor for both radio transmitter sites filed a lawsuit in Pakistan seeking an injunction on all
project site work. The subcontractor claims that it was unfairly terminated by the contractor because
of an inaccurate engineering assessment that held it responsible for the earlier collapse of the Peshawar
tower. A separate lawsuit filed by an organization working for the subcontractor is still in court.
Meanwhile, USAID is working with the contractor to ensure that work progresses as quickly as possible.

USIP. USIP supports stabilization in Pakistan by promoting religious tolerance and peaceful interfaith
dialogue while countering extremist messages. USIP is working to accomplish these objectives through
a 2½-year program with three components: (1) a grant program to build the capacity of civil society to
counter extremism and promote peace and religious tolerance, (2) content analysis and mapping of local
media outlets and the extent to which they broadcast or publish extremist or counterextremist
messages, and (3) policy research on and analysis of religious intolerance and extremism.

In November, USIP extended support to another initiative under its grant program. USIP is funding a
school certification program for incorporating skills for compassion into curricula and school policy and
produce a supplementary curriculum, educator training program, and online resource.                   The
implementer’s plans call for initial implementation at ten pilot schools with subsequent expansion to 100
others in Karachi.

Other grantees continued to make progress implementing their USIP-funded projects. One
implementer produced and aired 20 live interactive radio shows with youth, women, political leaders,
and local elders each month during the reporting period, while another held a 3-day consultative
workshop at a police academy on ways to build peace and interfaith harmony. Meanwhile, master
trainers from FATA and Khyber Pakhtunkhwa participated in interactive sessions on peace education,
conflict resolution, social cohesion, and interfaith harmony under a USIP-sponsored teacher training
program.

One USIP grant project concluded at the end of the reporting period. The Step By Step Project
broadcasted radio programming to promote girls’ education and peace. Community reporters engaged
in the project designed a strategy to remain active in these areas after the project concludes and project
staff published a directory for them.

                                                                                                         30
Meanwhile, USIP’s program on countering extremist voices through the media completed two phases of
work. Project staff wrapped up meetings with local media organizations at which they gathered
information on the pressures journalists face in reporting on violence. Staff members also concluded
their analysis of an audience survey of attitudes toward reporting on violence.

During the quarter, USIP-supported policy research efforts yielded a report on the roots of the violence
that has claimed more than 7,000 lives in Karachi in recent years. The report discusses past responses
to bloodshed in Pakistan’s largest city and recommends actions to stem violence.8


Education

Pakistan’s education system faces serious challenges. According to the UN Educational, Scientific, and
Cultural Organization’s 2012 Education for All Global Monitoring Report, Pakistan ranks 113 out of
120 countries on the Education for All Development Index. Pakistan’s school system is beset by chronic
underfinancing, poor quality, and corruption, resulting in some of the worst and most inequitable results
on education indicators in South Asia.

Less than three-quarters of school-age children are enrolled in primary school, and Pakistan is host to
the world’s second largest population of out-of-school children (5.1 million). Children who do attend
school encounter teachers who are ill prepared for the job and poorly equipped classrooms. Primary
school teachers face classrooms with an average of 40 students, almost twice the world average. Only
45 percent of children complete Grade 5; of those, less than half can read a simple sentence. Forty-five
percent of adults in Pakistan are illiterate.

In higher education, Pakistan remains far behind most of its neighbors in terms of quality, access, and
capacity. Institutions of higher learning in Pakistan lack productivity-enhancing technologies, and
university graduates are not always prepared to lead the country’s growth. In 2011, only 7.8 percent of
17- to 23-year-olds in Pakistan had access to higher education. This is a significantly smaller proportion
than in Nepal (10 percent) and similar to rates in sub-Saharan Africa.

The United States aims to improve access to high-quality education through its assistance to provincial
governments and universities. Assistance includes repairing and rebuilding schools and colleges,
providing teaching and learning materials, renovating and building teacher education facilities, improving
teacher preparation, strengthening the reading skills of primary-grade students, improving provincial and
district management and policies, developing fundraising programs for university scholarships, supporting
faculty exchanges in applied research in key disciplines, and fostering effective civil society involvement in
education. In addition, USAID and the U.S. Embassy’s Public Affairs Section (PAS) support programs
that promote faculty and student exchanges, U.S. university scholarships, and U.S.-Pakistan university
partnerships.


8
    Huma Yusuf, Conflict Dynamics in Karachi, USIP, October 2012.


                                                                                                           31
PAS. PAS focuses on maintaining exchange programs and expanding in-country English instruction and
alumni programs. PAS exchange programs are largely implemented through U.S.-based, nonprofit
institutions, but related outreach and recruitment activities are conducted in association with Pakistani
Government entities, the media, educational institutions, and NGOs. The United States Educational
Foundation in Pakistan (the Fulbright Commission), in particular, is heavily engaged in the recruitment
and selection of participants for academic and professional programs and provides support for program
alumni.

From October 1 to December 31, 2012, PAS continued to engage electronically with the 100 Pakistani
undergraduate students currently studying in U.S. universities and the 108 high school students
participating in a 1-year exchange program in U.S. high schools. Through a grant to Appalachia State
University, PAS funded an exchange program that brought 13 fifth graders, 4 teachers, and 2 principals
from a school in Taxila, Pakistan, to meet with their peers in North Carolina elementary schools. The
group has been collaborating online with several schools over the past 2 years on biology and math
projects initiated by a Pakistani Fulbright student studying at Appalachia State University. In addition,
PAS began recruitment for a 6-week summer exchange program for undergraduate students on
comparative public policy and women’s leadership. PAS also participated in a predeparture orientation
for the 100 Pakistani undergraduate students who will travel to U.S. universities in the spring for a
semester-long nondegree program.

PAS completed cooperative agreements for the last two 2012 university partnership programs, bringing
to eight the number of active partnerships between U.S. and Pakistani universities. The two new
agreements link the University of North Texas and the National University of Modern Languages,
Islamabad, and the University of Kentucky and five universities in Khyber Pakhtunkhwa.9 These
partnerships will support professional development for faculty, staff and student exchanges, joint
research projects, and other activities. PAS plans to continue the university partnership program in
FY 2013 to continue promoting long-term, peer-to-peer connections between U.S. and Pakistan
universities. PAS is in the process of identifying new Pakistani universities for partnerships and plans to
issue at least four requests for proposals in the second quarter of the fiscal year.

An evaluation of the Global Undergraduate Exchange Program, which provides fellowships for semester-
long undergraduate study in the United States to emerging student leaders from underrepresented
sectors in Pakistan, began during the reporting period. The contractor responsible for the evaluation
conducted focus groups and surveys with program alumni and the 100 students who will participate in
the 2013 spring semester.

The United States Educational Foundation in Pakistan hired staff and established a new office for the
Pakistani-led alumni association. The foundation plays a key role in PAS’s 5-year alumni engagement plan


9
  The Khyber Pakhtunkhwa partner universities are Abdul Wali Khan University in Mardan, Kohat University of
Science and Technology, the University of Peshawar, Bannu University of Science and Technology, and the Institute
of Management Sciences in Peshawar.


                                                                                                              32
by supporting a small grants program to fund community service projects planned and executed by
exchange program alumni. The first major event for the U.S.-Pakistan Alumni association, a reunion
conference for 300 alumni of the undergraduate exchange program, took place this quarter. Participants
learned about alumni activities and the resources available to them through the alumni association.

PAS reported that program participants and partners continued to face harassment during this reporting
period. According to PAS, domestic security agencies harassed Pakistani citizens participating in PAS
exchanges, organizations implementing PAS programs, and those attending PAS-sponsored
events. Following a recent site visit by PAS officials to a project in the southern Punjab, domestic
security agencies began harassing the implementing partner.

USAID. At the end of the reporting period, USAID had seven education programs and projects under
way and one transfer of funds to another agency (Table 6). These programs focused on improvements
in basic and higher education by providing training for teachers, scholarships for students and professors,
and support for reconstruction and renovation of schools. USAID’s 5-year Education Quality and Access
Project, which trained primary and middle school teachers and renovated schools damaged through
conflict, concluded in October 2012.

         Table 6. USAID Education Programs as of December 31, 2012 (Unaudited)

                                                   Start      End         Implementing          Funding
      Name                  Description
                                                   Date       Date          Partner               ($)

Earthquake-
Damaged Schools       Reconstructs earthquake-                          CDM Constructors
                                                   10/06      4/13                              147,454,624
Reconstruction        damaged schools                                   Inc. (CDM)
Program

                      Provides merit and
Higher Education      needs-based scholarships
Commission            for students to study at     3/10       2012      HEC                       90,000,000
Support               Pakistani higher education
                      institutions

Merit and Needs-      Provides bachelor’s and
Based Scholarship     master’s degree              6/04       3/16      HEC                       13,223,605
Program               scholarships

                      Supports early grade
Sindh Basic           reading, provides
                                                                        Sindh Department
Education             technical assistance, and    9/11       9/16                              113,576,111
                                                                        of Education
Program               supports reconstruction
                      of schools




                                                                                                        33
                                                      Start     End         Implementing        Funding
      Name                      Description
                                                      Date      Date          Partner             ($)

                                                                          Educational
Teacher Education         Provides preservice
                                                      5/11      9/13      Development             39,800,000
Project                   education for teachers
                                                                          Center

United States-            Provides opportunities
Pakistan Science          for cooperation between
                                                                          National Academy
and Technology            Pakistan and the United     9/05      7/18                              12,502,034
                                                                          of Sciences
Cooperative               States in science and
Program                   technology

                          Supports construction of
Women's Hostel            a 360-bed women’s                               Forman Christian
                                                      7/11      8/14                               6,000,000
Project                   dormitory at Forman                             College
                          Christian College

                          Provides scholarships to                        PAS and United
Transfer to
                          Pakistani graduate                  Reviewed    States Educational
PAS – Fulbright                                       9/04                                      171,000,000
                          students to study at U.S.            annually   Foundation in
Scholar Program
                          universities                                    Pakistan

Source: USAID/Pakistan.


As of December 31, 2012, USAID reported that U.S. Government-supported education programs had
strengthened the skills of 6,054 educators since October 2010. USAID also reported the following
education project developments this quarter:

    USAID worked with the Sindh Department of Education to begin mapping schools in seven target
    districts in Sindh and five target towns in Karachi for school consolidation and construction under
    the Sindh Basic Education Program.

    The Teacher Education Project continued to emphasize capacity development and training by
    working in tandem with HEC, provincial education departments, and partner colleges and
    universities to deliver and expand programs culminating in a 2-year associate’s degree in education
    and a 4-year bachelor of education honors degree. During the reporting period, the project
    organized 49 training workshops, helped 4 universities develop strategic plans, and helped
    38 teacher training colleges prepare plans to improve existing infrastructure and build capacity.
    These plans will serve as the basis for needs-based grants under the program. In addition, the
    project awarded 278 scholarships for 2-year and 4-year degree programs throughout the country.

    USAID is in the process of building 16 state-of-the-art schools of education at Pakistani universities.
    USAID funds the design of the buildings in line with the specifications developed by participating

                                                                                                        34
    universities in consultation with the Teacher Education Project. Construction continued on one
    facility while contractors were being selected for three other building projects, and a request for
    proposals was issued for the design and construction of ten more schools of education.

    With support from the Merit and Needs-Based Scholarship Program, HEC developed formal plans
    for the next round of scholarships for admission into the fall 2013 class. These scholarships will be
    awarded in more disciplines than in the past to improve the employability of graduates and gender
    parity.

    The National Academy of Sciences received more than 300 proposals for the fifth cycle of grants
    under the United States-Pakistan Science and Technology Cooperative Program. The program
    sought proposals on technology transfer; entrepreneurship; innovations in education, health,
    nutrition, water and sanitation, agriculture, democracy and governance, environment, energy, the
    social sciences, and economic development; and the commercialization of these innovations. The
    program also prepared for Pakistan’s first national symposium on technology transfer for economic
    development slated for January 14-15, 2013. More than 200 participants were expected to attend
    the event.

USAID also reported some challenges to the implementation and administration of its education
projects this quarter. USAID’s cooperative agreement with the implementer for the reading component
of the Sindh Basic Education Program was terminated in December 2012 by mutual agreement. The
implementer could not reduce financial management risks and had problems with its subgrantee. The
mission is revising the program description for the reading component of the program and planned to
release its solicitation for a new partner in February 2013.

In addition, USAID noted that struggles between one of the Agency’s implementers and other elements
of the Pakistani Government pose a possible challenge to USAID’s higher education programs. HEC is
an autonomous agency of the Government of Pakistan, established in 2002 by an act of Parliament to
oversee the country’s universities. However, the commission’s autonomy was at issue in two cases
pending before Pakistan’s highest court during the quarter. These struggles did not slow the
implementation of USAID programs during the reporting period, but changes to the commission’s
standing could affect them in the future.


Health

The quality of basic health services in Pakistan is uneven, with the rural population particularly
underserved. Improving the quality of care is complicated by inadequate Government of Pakistan
funding for the health sector, a fast-growing population, and ongoing confusion in the wake of the
devolution of health-care responsibilities to the provinces. Pakistan’s high fertility rate is expected to
more than double the population by 2050, further straining social services, increasing pressure on
economic and environmental resources, and adversely affecting the nation’s health. Health sector
responsibilities were transferred to the provinces following the enactment of the 18th Amendment to

                                                                                                       35
Pakistan’s Constitution in 2010. However, according to USAID, the transfer was initiated without
adequate planning or strategic dialogue. The provinces have limited financial and human resources with
which to address additional health-care functions, and remaining federal responsibilities are fragmented
and uncoordinated. A lack of federal and provincial leadership and ongoing disagreements over financial
responsibilities have crippled some basic primary and preventive health services.

Pakistan has the fourth highest maternal mortality ratio in Asia, and fewer than four in ten births are
attended by skilled health personnel. More than three in ten children in Pakistan are underweight.
Pakistan is one of three countries where polio is still endemic, and the Afghanistan-Pakistan border areas
are regarded as the greatest challenge to polio eradication globally.

The U.S. Government supports the Government of Pakistan and Pakistan’s private and nonprofit sectors
in accelerating progress toward child and maternal health goals by expanding high-quality, cost-effective
maternal, newborn, and child health services and increasing health service demand and access among the
nation’s poor. The health program portfolio seeks to improve access to and quality of essential family
planning and maternal and child health services through public sector capacity building, public and private
sector service delivery, and the establishment of public-private partnerships.

USAID. USAID had seven programs and one transfer of funds to another agency to support health
services in Pakistan during the reporting period (Table 7). These programs focus on improving maternal
and child health, family planning, polio eradication, as well as on renovating and reconstructing facilities.
USAID works to strengthen health systems through policy reform, technical assistance, human resource
development, improvements to public sector procurements of contraceptive commodities and other
key health supplies, and enhancements to logistics and supply chain management systems. USAID also
continues to dedicate significant resources to support Pakistan’s Emergency Polio Eradication Program.

           Table 7. USAID Health Programs as of December 31, 2012 (Unaudited)

                                                    Start      End         Implementing           Funding
       Name                  Description
                                                    Date       Date          Partner                ($)

                       Supports a survey to
Demographic and                                                          Macro International
                       collect data on national     1/11       12/15                               3,700,000
Health Survey                                                            Inc.
                       health indicators

                       Assists with the
Health Care            devolution of public
Management             health responsibilities      1/11       1/13      John Snow Inc.            3,000,000
Project                from federal to provincial
                       ministries

Health Services        Develops institutional
                                                                         Health Services
Academy Support        capacity in public health    7/08       3/13                                7,247,527
                                                                         Academy
Project                training and research

                                                                                                          36
                                                       Start    End          Implementing        Funding
      Name                      Description
                                                       Date     Date           Partner             ($)

Jacobabad Civil
                          Hospital renovation          10/10    10/13      CDM                    11,049,000
Hospital Project

                          Reconstruction of an
Jinnah Post-
                          extension to the
Graduate Medical                                       10/10    10/13      CDM                     5,629,069
                          obstetrics and
Center Project
                          gynecology/fistula ward

                                                                           John Snow Inc.,
                          Provides an integrated
                                                                           Population Services
Maternal and              program of health
                                                                           International /
Child Health              services to save lives of    5/12      5/17                            208,044,068
                                                                           Greenstar, Jhpiego,
Program                   women, infants, and
                                                                           and Marie Stopes
                          children
                                                                           International

                          Provides support for
                          national polio eradication                       UN Children’s Fund
Polio Vaccination         efforts through national             Reviewed    (UNICEF) and the
                                                       1/03                                       24,370,271
Program                   campaigns, disease                    annually   World Health
                          surveillance, and                                Organization
                          communications

Transfer to the
Centers for
Disease Control                                                            CDC, U.S.
and Prevention            Provides training to                             Department of
                                                       8/05     11/14                              6,783,494
(CDC) – Field             epidemiologists                                  Health and Human
Epidemiology and                                                           Services
Laboratory
Training Program

Source: USAID/Pakistan.


As of December 31, 2012, USAID reported that ten polio immunization campaigns had been completed
with U.S. Government support since the start of FY 2012. USAID also reported the following health
program developments this quarter:

    The Government of Pakistan formally approved an emergency polio eradication plan for 2012 to
    2015 during the reporting period. The $302 million effort has received financial support from the
    Islamic Development Bank, the World Bank, Japan’s International Cooperation Agency, and USAID,
    as well as from the Government of Pakistan’s Public Sector Development Program.


                                                                                                         37
With technical and operational assistance from USAID implementing partners, the Pakistani
Government conducted a national polio immunization campaign at the end of October 2012 in 163
districts, agencies, and towns. In total, 32 million children were vaccinated during the campaign. An
additional campaign to vaccinate 20 million children in 60 districts, agencies, and towns took place
December 17-19. These intensified polio immunization efforts may have contributed to a reduction
in cases of the disease, as the number of new cases in Pakistan dropped from 198 in 2011 to 58 in
2012.

The transfer of cold chain equipment to the Punjab Health Department under the Health Care
Management Project to help ensure the quality of routine childhood immunization services was
completed during the quarter. Besides diagnostic equipment, the project provided annual supplies
to the National AIDS Control Program and began assessing supply needs for next year. The project
also provided the National Tuberculosis Control Program with microscopes and laboratory
equipment during the reporting period and made arrangements to provide the first batch of
medicines for multidrug-resistant tuberculosis in mid-February 2013.

The 60-bed fistula and obstetrics and gynecology ward at the Jinnah Postgraduate Medical Center in
Karachi was completed and handed over to the Government of Sindh. U.S. Ambassador Olson
inaugurated the center in a ribbon-cutting ceremony on December 11, 2012. The new ward will
provide surgery and treatment for fistula and other complications and serve as a training institute
for up to 150 undergraduate and postgraduate medical students.

The Government of Sindh approved plans for Jacobabad Hospital operations and management
activities in November 2012 and worked with USAID on a memorandum of understanding outlining
project-related roles and responsibilities during the reporting period. The architecture and
engineering firm managing the project was expected to select a contractor for hospital construction
in January 2013, with construction slated to begin later that month.

Several components of the Maternal and Child Health Program made headway during the quarter:

-   USAID completed its preaward assessment for the family planning component of the program,
    which will cover 15 districts in Sindh and Punjab Provinces during its first year of operation.
    The implementer mapped health facilities and service providers in the service area, set up
    regional offices, and began recruiting field teams.

-   The procurement process for the maternal and newborn child health services component of the
    program moved forward during the quarter, and the mission worked toward the award of a
    5-year cooperative agreement in January 2013.

-   The health commodities component of the program completed provincial, regional, and private
    sector consultations for the FY 2013 contraceptive commodity forecasting and procurement



                                                                                                  38
       effort. In addition, the program helped design and develop a 3-credit-hour certificate course on
       supply chain management for the Health Services Academy.

USAID reported major challenges to polio eradication efforts. In late December 2012, nine health
workers were targeted and killed because of their involvement with polio vaccination drives. As a result
of these attacks, polio vaccination drives were halted in Sindh Province, Khyber Pakhtunkhwa, and
Islamabad. This halt to vaccination work came at a critical time for polio eradication efforts. Cold
temperatures from January to April make it more difficult for the polio virus to survive, and present an
opportunity for vaccination campaigns to achieve a polio-free Pakistan. USAID planned to support eight
vaccination campaigns in FY 2013, but security risks may limit the scope of these efforts and, in turn,
increase the likelihood that Pakistan will continue to see polio cases in 2014. In light of the recent
attacks, the national polio program has increased security by taking steps such as assigning police to
accompany vaccinators on their rounds.


Crosscutting Priorities: Good Governance, Gender Equity, and Greater
Transparency

The crosscutting priorities of U.S. Government assistance—improved governance, gender equity, and
greater transparency—are integrated, as appropriate, into programs in the sectors discussed in the
previous sections of this report. The U.S. Government also supports programs focused exclusively on
these areas. DOS’s Bureau of Democracy, Human Rights, and Labor (DRL), the Embassy’s PAS, and
USAID support programs in this category of assistance.

DRL. DRL supports ten projects that strengthen human rights, support democratic institutions,
promote fair labor standards, and encourage interfaith dialogue (Table 8).

     Table 8. DRL Human Rights and Democracy Programs as of December 31, 2012
                                   (Unaudited)

                                                   Start    End         Implementing          Funding
      Name                   Description
                                                   Date     Date          Partner               ($)

                      Supports human rights
Balochistan
                      initiatives in Balochistan   10/11     9/13     Consulate Karachi         500,000
Initiative
                      through small grants

                      Monitors, documents, and
Documenting                                                           International
                      analyzes reports of
Human Rights                                       9/12      3/15     Commission of            1,300,000
                      human rights abuses by
Abuses                                                                Jurists
                      security forces




                                                                                                     39
                                                  Start   End       Implementing         Funding
      Name                Description
                                                  Date    Date        Partner              ($)

                    Advocates for the rights
Empowering                                                        International
                    of home-based workers,
Home-Based                                        9/11    3/13    Catholic Migration      484,186
                    strengthens cooperatives,
Women Workers                                                     Commission
                    and builds their capacities

                    Increases the capacity,
Ensuring the
                    sustainability, and
Protection of
                    geographic reach of local
Human Rights                                      9/11    3/13    Freedom House           792,080
                    organizations that protect
Defenders and
                    human rights workers
Journalists
                    and journalists

                    Supports development of
Ethnic and          enhanced madrassa
                                                                  International Center
Religious           teaching materials and a
                                                  9/11    3/13    for Religion and        410,000*
Minorities School   university madrassa
                                                                  Diplomacy
Curriculum          teacher training
                    certificate course

                    Increases skills of
Promoting Media
                    journalists and civil
Transparency on
                    society groups; works         9/11    9/13    Internews              1,229,700
National Security
                    with media outlets to
Issues
                    reach broader audiences

                    Promotes peaceful
                    coexistence, mutual
Promoting
                    understanding, and                            Church World
Peaceful Co-                                      1/11    12/14                           648,543
                    respect among religious                       Service
Existence
                    minorities and the Muslim
                    majority in Pakistan

                    Enhances the role of the
                    legal profession and the
Protecting Human
                    justice sector in                             American Bar
Rights While
                    protecting and                7/12    6/14    Association Rule of     990,099
Countering
                    strengthening human                           Law Initiative
Terrorism
                    rights and the rule of law
                    in national security




                                                                                               40
                                                      Start       End          Implementing             Funding
      Name                    Description
                                                      Date        Date           Partner                  ($)

                        Increases the capacity of
Strengthening
                        elected women
Women
                        parliamentarians by                                 Search for Common
Parliamentarians                                      9/11        9/13                                    909,000
                        bolstering engagement in                            Ground
for Effective
                        decision making at the
Government
                        provincial levels

                        Builds organizational and
                        management capacity of
Strengthening           trade unions and
Worker and Trade        workers’ organizations in     4/09        9/13      Solidarity Center           1,095,049
Union Rights            collective bargaining, dues
                        collection, recruitment,
                        and other areas

Source: DRL.

*   This program operates in both Pakistan and Saudi Arabia. The funding figure provided is for the Pakistan
    component of the program.


DRL provided the following information regarding program developments during the quarter:

    DRL’s Empowering Home-Based Women Workers grant program aims to improve home-based
    workers’ access to good work opportunities. Because frequent power cuts in Pakistan had been
    hampering the work of home-based women workers, DRL’s implementing partner purchased and
    installed generators in all participating cooperatives during the quarter. The generators help these
    workers increase their productivity and their incomes. During the reporting period, the program
    implementer also organized provincial consultations in Lahore and completed a month-long media
    campaign on the rights of home-based women workers featuring radio messages, posters, and
    theatre performances.

    Radio and print stories developed with grant funding provided under the Promoting Media
    Transparency on National Security Issues Program were well received during the quarter. A piece
    about domestic violence in Multan produced by a female grantee was carried by her radio station as
    the lead story all day and the station ran an additional 1-hour discussion special on the issue. One
    grantee’s story on schools that have been destroyed in Pakistan’s tribal areas prompted the
    country’s leading English-language newspaper, Dawn, to run an editorial. Another recipient’s story
    about sectarianism received accolades including from the owner of the recipient’s radio station.
    Meanwhile, USAID’s implementing partner opened its Quetta office and recruited staff members to
    manage its activities in Balochistan.



                                                                                                               41
    DRL’s Strengthening Women Parliamentarians for Effective Government Program trained 60 women
    politicians on topics such as leadership, conflict resolution, advocacy, and effective media messaging.
    The objective of these trainings was to strengthen women’s participation in their constituencies
    across Pakistan. Participants were especially interested in learning ways to engage with the media
    and present themselves as effective leaders. The sessions allowed the parliamentarians to come
    together across political lines and interact with one another as women leaders.

    Under the Strengthening Worker and Trade Union Rights Project, the implementing partner
    conducted five 2-day trainings for union leaders and activists from 70 affiliates of the Pakistan
    Workers Federation and Muttahida Labour Federation. These sessions focused on promoting the
    financial self-sustainability of local unions and labor federations and highlighted the need for
    democratic, accountable, and transparent union structures at the local, regional, and national levels
    that are equipped with appropriate human, technical, and financial resources. The sessions also
    introduced the concept of city support centers for unions that would allow them to share resources
    and obtain legal support, training, assistance with organizing, and other essential services. The
    implementing partner also organized four 1-day training programs for the leaders of city affiliates of
    the newspaper hawkers’ union, the All Pakistan Akhbar Farosh Federation. The programs focused
    on helping the leaders understand the role of the federation within the broader labor movement.

DRL also noted that it encountered challenges in its Empowering Home-Based Women Workers
Program during the quarter. The program faced delays in registering cooperatives because of personnel
changes among district cooperative department officials, but the program did not anticipate further
delays.   Limited business management capacity has also presented a challenge to program
implementation, as cooperative members have required constant support from project staff. DRL was
considering additional training in the coming months to address this issue.

DRL cited several additional challenges in implementing its programs in Pakistan: (1) ensuring that
programs stay relevant and participants remain engaged as the country prepares for the next national
elections; (2) addressing organizational and participant safety when implementing project activities in
conflict areas; and (3) adjusting to changes in project timelines in response to security-related instability
exemplified by targeted killings, bomb blasts, and sectarian violence.

PAS. As part of the U.S. Embassy’s strategic communication efforts, PAS’s English Language Access
Program provides English instruction to more than 4,700 Pakistani students between the ages of 14 and
18. To strengthen the impact and expand the reach of English-language programs, PAS is also focusing
on programs to support teachers of English in Pakistan. In November and December, PAS hosted two
American English experts who provided training to more than 135 Pakistani English teachers in
Bahawalpur, Islamabad, Jamshoro, Lahore, and Mansehra.

USAID. USAID has ten programs and projects designed to improve governance, gender equity, and
transparency (Table 9). In addition, USAID transfers funds to PAS to support exchanges, and funds a
contract to enhance the Agency’s project monitoring and evaluation. USAID’s projects in this category

                                                                                                          42
of assistance include a hotline for the public to register complaints, support to organizations that oppose
domestic violence and gender discrimination, and broad civil society support. In addition to its ongoing
programs, USAID was planning a program to monitor the upcoming national elections.

   Table 9. USAID Good Governance, Gender Equity, and Transparency Programs as of
                          December 31, 2012 (Unaudited)

                                                    Start     End         Implementing           Funding
      Name                  Description
                                                    Date      Date          Partner                ($)

Anti-Fraud            Allows citizens to report
                                                                        Transparency
Hotline Project /     waste, fraud, and abuse of
                                                    1/09      9/15      International–           2,650,000
Anti-Corruption       U.S. Government funds
                                                                        Pakistan
Project               through a free hotline

                                                                        Rural Support
                                                                        Programmes
                      Conducts preaward
                                                                        Network, Lahore
Assessment and        assessments and develops
                                                                        University of
Strengthening         the capacity of Pakistani     10/10     10/15                             16,500,000
                                                                        Management
Program               organizations to manage
                                                                        Sciences, and
                      assistance funds
                                                                        Associates in
                                                                        Development

                      Makes small grants to civil
                      society organizations for
                      advocacy projects that                            Trust for
Citizens’ Voice       support citizen                                   Democratic
                                                    5/11      9/15                              14,250,000
Project               participation in energy,                          Education and
                      economic growth,                                  Accountability
                      education, health, and
                      stabilization

                                                                        National
Election Support      Assesses the current
                                                    10/12     09/13     Democratic               1,400,000
Program               electoral environment
                                                                        Institute

                      Makes small grants to
Gender Equity         organizations opposing
                                                    8/10      8/15      Aurat Foundation        18,618,429
Program               domestic violence and
                      gender discrimination

Independent           Provides mission-wide
                                                                        Management
Monitoring and        support for monitoring,
                                                    6/11      6/16      Systems                 22,000,000
Evaluation            evaluation, and the
                                                                        International
Contract              PakInfo system


                                                                                                        43
                                                        Start   End       Implementing       Funding
      Name                      Description
                                                        Date    Date        Partner            ($)

                                                                        Provincial
Municipal Services        Improves delivery of basic
                                                                        governments’
Program, Sindh            municipal services
                                                        7/10    7/15    planning and        116,765,826
and Khyber                including water in
                                                                        development
Pakhtunkhwa               Jacobabad and Peshawar
                                                                        departments

                          Improves the
Political Parties         transparency and                              National
Development               accountability of Pakistani   7/11    7/13    Democratic            7,498,790
Project                   political parties to their                    Institute
                          constituents

                          Expands USAID public
Public
                          communications to
Communications                                          11/11   11/14   Interflow            14,500,000
                          increase the transparency
Project
                          of USAID efforts

                          Makes small awards for
Small Grants and
                          community initiatives that                    National Rural
Ambassador's                                            8/10    8/15                         21,500,000
                          support U.S. foreign                          Support Programme
Fund Program
                          assistance objectives

                          Provides short- and long-                     Institute of
Training for
                          term training and study       9/11    3/13    International         6,561,354
Pakistan
                          tours                                         Education

                          Conducts exchange
Transfer to PAS –         programs and in-country
                                                                        DOS Bureau of
Exchanges /               English language
                                                        7/05    2015    Educational and      23,740,000
Strategic                 instruction that support
                                                                        Cultural Affairs
Communications            strategic communications
                          objectives

Source: USAID/Pakistan.

As of December 31, 2012, USAID reported that 325 local NGOS had received support through U.S.
Government assistance since the inception of its small grants programs in 2010. USAID also provided
the following information on recent developments associated with its governance and gender-equity
assistance programs:

    The Citizens’ Voice Project has made 42 grants valued at $5.2 million to Pakistani organizations.
    Grants have addressed themes related to municipal services, legislative governance, water rights,
    and education and justice sector reforms. Thirty more awards are pending approval or final
    execution, and 369 additional grant proposals are under review.
                                                                                                    44
    The Gender Equity Program awarded 50 grants under its most recent cycle of awards. With a
    combined value of approximately $2.4 million, these grants support a wide array of activities such as
    strengthening locally operated help lines, providing gender training for court officials, and assisting in
    the rehabilitation of survivors of gender-based violence. Meanwhile, during the quarter, the
    program helped sponsor more than 50 events across the country during 16 days of activism against
    gender-based violence. Among these events was the launch of the program’s animated television
    series to educate children about gender equality and raise awareness about gender-based violence.
    The Urdu-language series called ―Mein aur Mere Dost‖ (Me and My Friends) is the first animated
    cartoon produced in Pakistan using 3-D technology. Designed for children ages 9 to 12, the seven-
    episode series features a team of middle-school detectives aiding a troubled fellow student who is
    displaying behavior associated with victims of gender discrimination and violence.

    The Municipal Services Program continued to make progress in Khyber Pakhtunkhwa during the
    quarter. Contracts for the first quick-start activities, which include drain cleaning work and
    improvements to water pumping system components, were awarded and work began. Meanwhile,
    the program awarded a local architectural and engineering company a task order for developing a
    master plan for Peshawar water and sanitation services. The program also began its assessments for
    the next set of quick-start activities and for long-term program activities. In addition, the
    Government of Khyber Pakhtunkhwa approved the establishment of a program-supported urban
    development think tank for the provincial government.

    The Municipal Services Program also made headway in Sindh Province. The Government of Sindh
    released funds to establish a project management unit for the program and the unit began operating.
    Meanwhile, plans took shape for upgrades to and construction of wastewater drains in Jacobabad.
    Program staff developed cost estimates and detailed designs for this work during the reporting
    period.

    To date, USAID’s Small Grants Program has made 46 awards for a total of $10.0 million to fund
    unique and innovative projects that support core development objectives in Pakistan in energy,
    economic growth, stabilization, health, education, good governance, gender equity, and public
    communication. An additional 82 awards totaling $7.2 million have been executed under the U.S.
    Ambassador’s Fund Program. Communities have praised these investments, noting that they have
    responded to some of the most urgent community priorities in domestic energy supply, water and
    sanitation, basic education, and agriculture.

USAID noted several challenges to program implementation in this area. Some conservative cultural
attitudes and practices limit inclusiveness in public decision making, and elements of the government are
not always willing to accept citizen input on policy matters. In addition, local NGOs often lack the
capacity and experience to perform effective policy advocacy, and increasing militancy and security
threats impede project implementation in remote rural areas.




                                                                                                           45
Humanitarian Assistance
The U.S. Government continues to provide humanitarian assistance in Pakistan as the country grapples
with both man-made and natural crises. Ongoing military operations and militant activity that began in
August 2008 have resulted in a sizable internal displacement in Khyber Pakhtunkhwa and FATA. With
the help of UN agencies and the international community, Pakistan continues to recover from flooding
in 2010, 2011, and 2012, while also strengthening crisis planning and implementing risk-reduction
methods to decrease the devastation of future floods. The country also hosts some 1.66 million
registered Afghan refugees, as well as approximately 1 million unregistered Afghans residing in Pakistan
as economic migrants. The first wave of refugees arrived in 1979, leading to one of the largest and most
protracted refugee situations in the world.

DOS’s Bureau of Population, Refugees, and Migration (PRM) and USAID manage and coordinate
humanitarian assistance programs and activities in Pakistan on behalf of the U.S. Government.

PRM. PRM’s main goals in Pakistan are to meet humanitarian assistance needs, maintain safe spaces for
refugees, support durable solutions for Afghan refugees and migrants, and advance the sustainability of
PRM services.

The UN High Commissioner for Refugees (UNHCR) is PRM’s primary partner in Pakistan in assisting
Afghan refugees. UNHCR provides protection and essential services to refugees and oversees their
repatriation to Afghanistan. Since 2002, nearly 3.8 million Afghan refugees have returned to Afghanistan
through UNHCR’s voluntary repatriation centers in Pakistan. With PRM support, UNHCR and the
International Committee of the Red Cross also provide protection and assistance to people in Pakistan
affected by conflict and natural disaster.

In addition, PRM partners with 11 NGOs in Pakistan to provide Afghan refugees and host-community
members with primary education, maternal and child health care, and livelihood and skills development,
as well as to prevent and respond to gender-based violence (Table 10).

 Table 10. PRM Humanitarian Assistance Programs as of December 31, 2012 (Unaudited)

                                                                        Start      End         Funding
            Name                             Description
                                                                        Date       Date          ($)

Community-Based
Comprehensive Health              Provides services to refugees and
Services and Livelihoods          host-community members in and
Opportunities for Afghan          around three refugee settlements in   9/12        8/13       919,852
Refugees and Host                 the Pishin and Quetta Districts of
Communities in Balochistan        Balochistan
Refugee Camps




                                                                                                     46
                                                                         Start   End    Funding
           Name                             Description
                                                                         Date    Date     ($)

                                Provides primary education, skills
Education, Skills, and          development activities, and response
Protection for Afghan           services for victims of gender-based
                                                                         9/12    9/13   367,602
Refugees and Host               violence to Afghans and host-
Communities Program             community members in semiurban
                                Quetta, Balochistan

                                Improves the livelihoods of 100
Improving the Income of
                                extremely vulnerable women by
Vulnerable Women Through                                                 8/12    2/13   25,000
                                providing an improved breed of
Income Generating Activities
                                egg-laying hens

Improving Livelihood
                                Improves livelihood opportunities
Opportunities for Afghans and
                                for Afghan refugees and local youth
Local Communities by                                                     9/12    9/13   235,411
                                through skills training and job
Imparting Skills in Demand
                                placement
Driven Trades

                                Supports seven government health
                                facilities in Balochistan’s Quetta
Integrated Afghan Refugee       District in providing quality maternal
                                                                         9/12    8/13   900,000
Assistance Program              and child health care and health
                                education to Afghan refugees and
                                members of the host community

                                Provides basic health services and
                                improves skills of 300 Afghan refugee
Mansehra Health, Vocational
                                men and women in the Barari,
Training, and Market                                                     7/12    6/13   592,725
                                Ichrian, and Khaki refugee villages in
Development Program
                                the Mansehra District of Khyber
                                Pakhtunkhwa

                                Provides Afghan refugees and host-
                                community members primary and
Primary Healthcare,             reproductive health care and health
Repatriation, and Gender-       and hygiene information, and
Based Violence Support for      prevents and responds to gender-         5/12    4/13   900,000
Afghan Refugees in Khyber       based violence in seven refugee
Pakhtunkhwa                     villages and one urban area of the
                                Peshawar, Swabi, and Buner Districts
                                of Khyber Pakhtunkhwa




                                                                                             47
                                                                              Start     End     Funding
             Name                                Description
                                                                              Date      Date      ($)

Skills Training and Income           Provides skills training and job
Generation for Urban Afghan          placement services to Afghan
                                                                              7/12      6/13    599,957
Refugees in Rawalpindi-              refugees in Rawalpindi-Islamabad and
Islamabad and Peshawar               Peshawar

                                     Builds the capacity of and increases
Strengthening Community-
                                     access to community-based health
Based Healthcare Services for
                                     care for Afghan refugees by training
Afghan Refugees and Building
                                     health workers to reduce maternal        9/12      9/13    443,567
a Bridge to Better Quality
                                     mortality rates in the Swabi, Mardan,
Facility Services Through
                                     Nowshera, and Charsadda Districts
Capacity Building
                                     of Khyber Pakhtunkhwa

Strengthening Existing               Provides primary school education
Learning Structures of               to refugee children in urban Quetta
                                                                              2/12      1/13    192,795
Marginalized Afghan and              and helps assess their nutritional and
Minority Children in Quetta          basic health-care needs

                                     Provides skill training and improved
Strengthening Livelihood             breeds of poultry and livestock to
Systems of Afghan and                Afghan refugees and their host           9/12      9/13    312,548
Pakistani Communities                communities in the Lower Dir
                                     District of Khyber Pakhtunkhwa

Source: PRM, U.S. Embassy Islamabad.

Note: This table omits the names of PRM’s implementing partners for security reasons.


During the quarter, PRM concluded its Transition Support Programming for Afghan Refugees in Pakistan
project. The project provided primary and reproductive health care services to 29,000 Afghan refugees
and Pakistani host community members in Khyber Pakhtunkhwa’s Haripur District, and basic education
to 15,000 Afghan children in eight refugee villages in Balochistan. In addition, the project trained
community-based health quality assurance teams and local NGOs to support refugee programs’ health
and education sector transitions off of international assistance.

USAID. USAID’s Office of Food for Peace (FFP) and Office of U.S. Foreign Disaster Assistance
(OFDA) provide humanitarian assistance in response to complex emergencies10 and natural disasters in
Pakistan. Both offices manage their programs from Washington, D.C., but have assigned technical
experts to Pakistan to coordinate activities with the USAID mission’s technical and provincial offices.

10
  Complex emergencies are humanitarian crises in areas where there has been a breakdown of authority as a
result of internal or external conflict.


                                                                                                      48
These experts provide links with other providers of humanitarian assistance in Pakistan and advise the
mission on emergency conditions and USAID’s options to respond to them.

From 2003 to 2012, FFP provided $588.9 million to Pakistan to address food needs in complex
emergencies and disaster response.

FFP has contributed to the food security of internally displaced persons (IDPs) in Khyber Pakhtunkhwa
and FATA since 2009 and of those throughout Pakistan who were affected by the 2010, 2011, and 2012
floods. FFP provides in-kind and cash assistance.

FFP channels the bulk of its assistance through the UN World Food Programme (WFP). WFP provides
food rations to IDPs while they are away from home and for 6 months after their return. It provides
supplementary food for malnourished children and for pregnant and lactating mothers. WFP also
provides rehabilitation and reconstruction assistance in the form of food rations for workers on
projects to rehabilitate community infrastructure.

According to Pakistan’s National Disaster Management Authority, 4.8 million people were affected by
flooding in 2012. In response to the 2012 floods, FFP provided its available in-country commodities for
emergency distribution to 40,000 families in Sindh and Balochistan Provinces. FFP then used in-country
commodities for a second phase of family food rations for 1.2 million people in Sindh and Balochistan.

As of December 31, 2012, USAID reported the following examples of program developments and
achievements in FFP humanitarian assistance programs:

   During the quarter, WFP reached an average of 1.1 million IDPs and returnees a month through its
   FFP-supported relief program in Khyber Pakhtunkhwa and FATA. In addition to IDPs in refugee
   camps, the program reached 961,000 IDPs outside of camps and provided nearly 50,000 returnees
   monthly rations to help them rebuild their lives in their home communities.

   During the quarter, FFP provided $30 million in additional funding to WFP for IDPs in Khyber
   Pakhtunkhwa and FATA. These funds will cover the cost of program operations, provide
   approximately 23,000 metric tons of commodities to meet basic food requirements of people
   displaced by conflict and security operations, contribute to community infrastructure repair, and
   address malnutrition of young children and pregnant and lactating women.
   The USAID mission expressed its intention to award a $5 million grant to WFP for the immediate
   purchase of replacement commodities for humanitarian assistance.

   In response to an appeal from WFP/Pakistan, the Governments of Balochistan and Sindh transferred
   nearly 23,000 metric tons of wheat from their reserves to WFP for the 2012 flood response. These
   wheat reserves were released, processed, and distributed with financial assistance from Australia,
   Denmark, and the United Kingdom, reducing the need for additional FFP contributions.



                                                                                                    49
USAID’s OFDA responds to humanitarian needs in Pakistan that result from natural and man-made
disasters.

Heavy monsoon rains that began in late August 2012 triggered flooding that affected 4.8 million people,
resulted in 430 deaths, and damaged or destroyed more than 402,000 houses according to Pakistan’s
National Disaster Management Authority. Although the Government of Pakistan did not formally appeal
for humanitarian assistance, it requested that humanitarian organizations distribute emergency relief
items in coordination with local authorities. In response, the U.S. Government issued a disaster
declaration on October 5, 2012, to address the flooding in Sindh, Balochistan, and Punjab Provinces.
During the reporting period, OFDA provided funding to support shelter, water, sanitation and hygiene
activities and the transport of relief supplies. Meanwhile, OFDA staff in Islamabad assessed the impact of
the flooding and considered other humanitarian response options in coordination with other partners
on the ground.

Meanwhile, OFDA continued its humanitarian response strategy of supporting conflict-affected
populations—particularly newly displaced people in Khyber Pakhtunkhwa and FATA—and helping
communities affected by floods over the past 3 years recover from the devastation. For newly displaced
individuals, OFDA has focused on health and water, sanitation, and hygiene assistance, as well as on the
provision of shelter and emergency relief supplies; for IDPs returning home, it prioritizes economic
recovery and agricultural support. In addition, OFDA is working with disaster-prone communities to
reduce their vulnerability through community-based initiatives to manage disaster risk.

During the quarter, USAID/OFDA provided nearly $5.3 million in additional funding to meet priority
humanitarian needs and aid the economic recovery of people displaced by conflict or flooding. Total
OFDA assistance to Pakistan amounted to nearly $27 million in FY 2012. This assistance builds on the
nearly $432 million in emergency relief funding provided by OFDA over the previous 10 years.

Thirteen OFDA programs were active in Pakistan at the end of the reporting period, four of which were
initiated during the quarter (Table 11). Two OFDA-funded programs that provided support to UN
agencies in Pakistan concluded during the reporting period.

  Table 11. USAID OFDA Humanitarian Assistance Programs as of December 31, 2012
                                 (Unaudited)

            Name                             Description                 Start     End         Funding
                                                                         Date      Date          ($)

                                  Improves the capacity and strategies
                                  of poor and vulnerable populations
                                  and key stakeholders in Sindh,
Community-Based Disaster
                                  Punjab, and Khyber Pakhtunkhwa         7/11       3/13       1,342,678
Risk Management Program
                                  Provinces to manage disaster risk
                                  through sustainable preparedness
                                  and mitigation measures

                                                                                                       50
                                                                           Start   End     Funding
            Name                             Description
                                                                           Date    Date      ($)

                                 Targets improvements in the
                                 capacity and strategies of poor and
Community-Based Disaster         vulnerable populations and key
Risk Management Program in       stakeholders in Sindh Province to         9/12    9/13    1,399,962
Sindh                            manage disaster risk through
                                 sustainable preparedness and
                                 mitigation measures

                                 Supports the World Health
                                 Organization’s Disease Early
                                 Warning and Response System,
Disease Early Warning and        which gathers and analyzes national
                                                                           7/12    1/13    3,700,000
Response System Support          health data to enable detection and
                                 response to epidemic-prone diseases
                                 and reduce resulting disease
                                 transmission and death

                                 Provides economic recovery
Facilitating Economic            assistance to vulnerable IDPs who
Recovery for Off-Camp            have been displaced from FATA             7/12    4/13    2,400,000
Vulnerable IDP Families          since 2012 and are residing in host
                                 communities in Khyber Pakhtunkhwa

Logistics Support for            Provides logistics support to flood-
                                                                           11/12   4/13    100,000
Response to 2012 Floods          affected regions

                                 Provides support to the UN’s
Office for the Coordination of
                                 OCHA for humanitarian assistance
Humanitarian Affairs (OCHA)                                                1/12    12/13   300,000
                                 coordination and information
Support
                                 management activities

                                 Rehabilitates damaged shelters and
                                 provides training on building
                                 weather-resistant structures for
                                 people affected by flooding and
Providing Shelter
                                 complex emergencies; helps OCHA
Rehabilitation and Cluster                                                 5/12    7/13    5,700,000
                                 develop common strategies and
Support
                                 promote information sharing and
                                 coordination among international
                                 relief agencies responsible for shelter
                                 activities




                                                                                                   51
                                                                             Start       End     Funding
             Name                               Description
                                                                             Date        Date      ($)

                                    In FATA and Khyber Pakhtunkhwa,
                                    provides speedy, targeted grants to
                                    partners with the capacity, local
Responding to Pakistan’s
                                    knowledge, and access required to        8/09        9/13    5,682,000*
Internally Displaced (RAPID)
                                    meet the needs of flood victims and
                                    IDPs, host communities, and
                                    returnees

                                    Supports the provision of transitional
Shelter and Settlement
                                    shelter to members of flood-affected     12/12       6/13    1,199,360
Support in Sindh
                                    households in Sindh Province

                                    Provides conflict-displaced
                                    individuals and members of host
                                    communities in FATA with access to
Supporting Conflict-Displaced
                                    safe drinking water as well as with
People in FATA and Khyber                                                    7/12        3/13    600,000
                                    exposure to improved sanitation and
Pakhtunkhwa
                                    environmental health and hygiene
                                    practices to reduce the risk of
                                    waterborne disease

                                    Provides coordinated, locally
                                    appropriate, cost-effective, and
Supporting the Recovery of
                                    durable shelter assistance and
Flood-Affected People in                                                     3/12        2/13    2,230,734
                                    sustainable food security support to
Southern Sindh Province
                                    vulnerable households that lost their
                                    homes as a result of flooding in 2011

                                    Supports UNICEF’s provision of
UNICEF Support                      water, sanitation, and hygiene
                                                                             12/12       12/13   1,000,000
                                    assistance in response to floods and
                                    complex emergencies

                                    Provides water, sanitation, and
Water, Sanitation, and
                                    hygiene assistance in Sindh
Hygiene Support for Flood-                                                   12/12       6/13    1,000,000
                                    Province’s flood-affected districts of
Affected Households
                                    Jacobabad, Kashmor, and Shikarpur

Source: USAID/OFDA.

Note: This table omits the names of OFDA’s implementing partners for security reasons.

*   Figure excludes funding from FY 2011 and prior years.




                                                                                                         52
USAID provided the following examples of program developments and achievements in OFDA
humanitarian assistance programs during the reporting period:

     Since last July, OFDA has supported training for community disaster-management committees and
     schoolteachers on disaster-response techniques through the Community-Based Disaster Risk
     Management Program. This quarter, OFDA initiated a second program to facilitate disaster
     preparedness and risk reduction activities in other parts of Pakistan.

     OFDA continued to provide support to a rapid-response fund known as RAPID to address the
     needs of IDPs, their host communities, and returnees in Pakistan. Since establishing the fund in
     2009, OFDA has awarded nearly $29 million to support more than 100 activities that benefit an
     estimated 2.6 million conflict- and flood-affected people.

     OFDA continued to meet the recovery needs of 38,500 people whose homes were destroyed by
     severe 2011 monsoon flooding in southern Sindh Province. It provided shelter for more than
     2,240 individuals and tree-planting training to 2,590 people. Those living in shelters also receive
     tree-planting inputs, kitchen gardening kits, and training to reduce food insecurity.

     In November 2012, OFDA concluded its support for efforts by the UN Office for Project Services
     to provide transitional shelters to people affected by the 2011 floods in Sindh Province. This
     program facilitated the construction of more than 4,000 one-room shelters.

Assistance to Pakistani Institutions

To ensure greater responsiveness and increase the sustainability of civilian programs, the U.S.
Government plans to continue to implement programs through Pakistani institutions, including national
and provincial governments and NGOs, when feasible.11 The purpose of this focus is to:

     Align programs with locally identified priorities.

     Build Pakistanis’ sense of ownership of programs.

     Build Pakistani institutional and leadership capacity for better fiscal management.

     Promote decentralization to engage provincial and local partners and beneficiaries more actively.

     Deliver on-budget assistance12 to promote transparency, harmonization, and better budget planning
     by the Government of Pakistan.

11
  The Enhanced Partnership with Pakistan Act of 2009 encourages appropriate use of Pakistani firms and NGOs to
implement the programs authorized under Title I of the act (Section 101(c)(3)).
12
   Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible
is expected to help Pakistan’s Government meet the fiscal targets required by the International Monetary Fund and


                                                                                                                 53
     Reduce costs.

USAID awarded more than $2.211 billion to Pakistani institutions between FY 2010 and FY 2012.13 As
of mid-December 2012, USAID had made approximately $36.8 million in awards to Pakistani institutions
during FY 2013 (Table 12). Awards made by USAID fall into one of the following three categories:
direct funding for government projects, awards to nonprofit Pakistani organizations, and awards to
Pakistani for-profit entities.

         Table 12. USAID Assistance to Pakistani Institutions in FY 2013* (Unaudited)

                                                                                  Number of          Value ($) of
 Implementing Partner, Project
                                                                                   Awards           Subobligations

 Direct Funding for Government Projects                                                  1             1,839,050

 Government of Khyber Pakhtunkhwa’s Local Government and Rural
                                                                                         1              1,839,050
 Development Department, Municipal Services Program

 Awards to Pakistani Nonprofit Organizations                                             2           21,250,000

 Agribusiness Support Fund, Agribusiness Project                                         1             17,000,000

 Trust for Democratic Education and Accountability, Citizen’s Voice Project              1             4,250,000

 Awards to Pakistani For-Profit Entities                                                 3            13,675,359

 Interflow Communications, Public Communications Project                                 1             8,989,616

 National Development Consultants (Pvt.) Ltd., Assessment and evaluation
                                                                                         1             4,035,743
 services for Peshawar Master Plan, Municipal Services Program

 AID (Pvt.) Ltd., Monitoring and evaluation services for projects in FATA and
                                                                                         1              650,000
 Khyber Pakhtunkhwa

 Total                                                                                   6            36,764,409

Source: USAID/Pakistan.
* Awards made to Pakistani institutions from October 1 to December 15, 2012.




raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budgeting and cash-flow management.
13
  This total includes $11.3 million in awards to Pakistani institutions from September 14 to September 30, 2012, that
were not noted in the previous edition of this report because of a lag in the mission’s reporting on this type of
assistance. These funds were awarded to Pakistan’s HEC, the FATA Secretariat, the Rural Support Programmes
Network, Ages Consultants, Qavi Engineers, and Echo West International.


                                                                                                                   54
Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting and financial management systems, internal controls, technical capabilities, and quality
assurance capabilities, as well as organizations’ policies, procedures, and practices for effective and
efficient management of USAID/Pakistan resources. Through the end of 2012, USAID had completed
201 preaward assessments.

USAID also works to strengthen the capacity of Pakistani institutions to manage and oversee project
activities. USAID has sponsored 99 activities to build institutional capacity under the Assessment and
Strengthening Program and completed 4 research studies on streamlining project management units.
Courses offered under the program are designed for government, civil society, and local private sector
participants at all levels. The program offers participating organizations training courses on financial
management, procurement management, human resources and administrative management, and
monitoring and evaluation. The USAID mission is also working with the Office of the Auditor General
(Pakistan’s Supreme Audit Institution) to strengthen its capacity to provide audits required under
government-to-government agreements.




                                                                                                     55
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components—increased its staff size in
Islamabad, Lahore, and Karachi but experienced a decline in staffing at the regional office in Peshawar.

As shown in Table 13, USAID reported a total of 250 staff (56 U.S. direct hires and 194 others) as of
December 31, 2012. USAID mission management did not fill all vacancies during the past few quarters
because of limited availability of office facilities for these personnel. With the mission’s move to a new
building in mid-September, USAID has expanded recruitment to fulfill its responsibilities without relying
on temporary-duty employees or on support from Washington, D.C. According to the Pakistan
Assistance Strategy Report, USAID, as the lead and largest manager of assistance funds among U.S.
Government agencies, will need to increase its project management, legal, financial management, and
procurement staff significantly. With an FY 2013 target of 310 staff, USAID/Pakistan remained
understaffed by 60 positions.

                      Table 13. USAID Staffing in Pakistan as of December 31, 2012

                                                                                         Change From
       Category             Islamabad   Peshawar*   Lahore      Karachi       Total
                                                                                         Sept. 30, 2012

  U.S. direct hires              48         4          3           1            56              +2

  U.S. personal services
                                 16         4          1           2            23              +3
  contractors

  Third-country
                                 11         1          0           0            12               –
  nationals

  Foreign Service
  Nationals                     116        20          11          9           156              +7
  (Pakistani staff)

  Eligible family
                                 3          0          0           0              3             +1
  members

  Long-term
                       †         0          0          0           0              0             -1
  temporary-duty staff

 Total Staff                   194         29          15          12          250             +12

 Staff Target 2013                                                             310

 Staff Shortfall                                                                60

Source: USAID/Pakistan.


                                                                                                       56
*   Includes staff members assigned to Peshawar but currently residing in Islamabad.

†   USAID/Pakistan counts individuals who have been in Pakistan for a year or more occupying vacant positions
    toward its total number of positions.


PAS personnel in Pakistan work in offices in Islamabad, Karachi, Lahore, and Peshawar. In total, PAS had
28 U.S. direct hires and 53 Pakistani staff members as of December 31, 2012. As of that date, INL-
Pakistan had 10 U.S. direct hires, 2 U.S. personal services contractors, 6 third-party contractors, and
76 Pakistani staff; USDA had 3 U.S. direct hires and 5 Pakistani staff members. At the end of the
reporting period, PRM had one U.S. direct hire, one eligible family member on staff as a personal
services contractor, and one locally engaged Pakistani employee. USIP has one employee based in
Pakistan.




                                                                                                          57
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities have identified risks that could jeopardize the
U.S. Government’s assistance program in Pakistan and developed corresponding mitigation strategies.
The following challenges facing the civilian assistance program remained pertinent during this quarter:

   Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such instability limits progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program.

   Operating restrictions. Implementation and monitoring of U.S. Government-supported projects have
   been hindered by strict Government of Pakistan rules regarding travel outside of Islamabad and
   provincial capitals. Visits to some areas require from several days’ to 3 weeks’ prior notification and
   sometimes the approval of the Ministry of Foreign Affairs; these restrictions delay and often lead to
   the cancellation of site visits. Difficulty obtaining visas and visa renewals continues to hamper
   recruitment and lower staff morale. Further, local authorities continue to harass U.S. Government
   and Embassy personnel, especially local staff members.

   Resistance to economic reform. Entrenched interests resist policy reforms needed to transform the
   economy. The effective governance, accountability, and financial solvency of energy sector
   institutions are critical to economic reform. Political interference continues to undermine the
   decision-making ability of power company managers and regulatory officials. According to USAID, if
   Pakistan does not implement fundamental reforms, assistance from the United States and other
   donors will have limited long-term benefits.

   Vulnerability to natural disasters. Flood damage has delayed implementation of projects in affected
   areas. Because Pakistan is prone to natural disasters such as flooding, this is a regular risk. To help
   Pakistan address this risk, USAID supports programs in water storage and management, including
   the surface water management program for Balochistan and Gomal Zam Dam that contributes to
   flood mitigation efforts. OFDA also has ongoing efforts to strengthen Pakistan’s ability to respond
   to disasters and reduce related risks.

   Leadership turnover. High levels of staff and leadership turnover within the Government of Pakistan
   and the U.S. Government affect planning, coordination, and implementation of programs. Senior
   managers at power companies and senior government officials at the Ministry of Water and Power
   are usually political appointees who spend less than 2 years in their positions. The devolution of
   federal programs for health, education, and agriculture to provinces with insufficient guidance on the
   expected roles and responsibilities of the federal, provincial, and district governments has also
   complicated project implementation. High U.S. Government staff turnover also limits the efficiency
   and effectiveness of assistance programs.

                                                                                                       58
    Adverse environmental impact. Some development projects have the potential to degrade the natural
    or physical environment. USAID/Pakistan conducts environmental assessments before disbursing
    funds for projects. To address these environmental concerns, USAID takes steps to mitigate risks
    before continuing with project activities.

    Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, Sindh, and Balochistan, where there is
    limited institutional capacity and insufficient staff with experience in financial and procurement
    management, extra effort is made to mitigate the risk of resources being lost through inefficiency,
    theft, or general lack of capacity to handle large amounts of funding. Several major U.S.
    Government programs are designed to increase the institutional capacity of Pakistani institutions in
    these areas. USAID/Pakistan’s Population Health and Nutrition Office, for example, implements a
    number of programs, including support for the Health Services Academy, to strengthen health-care
    institutions and human capital.

    Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
    Government of Pakistan have collaborated to introduce special accounts for budget support
    provided by the United States to address financial challenges and maintain accountability. However,
    financial management, accountability, and reporting challenges continue. USAID is providing
    targeted financial management assistance to key Government of Pakistan institutions and
    collaborates with other donors through the Working Group on Public Financial Management.

    Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
    conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA,
    Khyber Pakhtunkhwa, and Balochistan, and to engage Pakistani officials in project design. In March
    2012, a Balochistan Agriculture Project vehicle was attacked; two people associated with the project
    were killed, and a third was injured. In August, eight local WAPDA staff members working on the
    Gomal Zam Dam Project were kidnapped and one was later found dead. In December, nine polio-
    eradication workers were killed because they were involved in vaccination drives. Project
    implementation continues in the face of these security threats.

As described above, security conditions present an ongoing challenge for civilians providing assistance in
certain vulnerable areas, and they challenge the U.S. Government’s ability to monitor and evaluate
programs. USAID is meeting the challenge through an independent monitoring and evaluation contract.
Services provided under the contract include routine monitoring, training on entering project
performance data, mapping using a geographic information system, and conducting evaluations and
assessments. The integrity of the data provided by USAID/Pakistan’s implementing partners, which
serves as the basis for annual performance reporting, is also verified under the contract. Additionally,
USAID’s Office of Afghanistan and Pakistan Affairs, in conjunction with USAID/Pakistan, has developed a
database, PakInfo, which includes indicators that USAID uses to measure the progress of its programs,
as well as the indicators that each implementing partner uses to track progress.




                                                                                                       59
This performance reporting takes place within a larger framework designed to ensure that broader U.S.
strategic and operational objectives are met. USAID mission achievement is measured against
performance indicators and targets identified in the mission’s results framework and performance
management plan. The results framework defines mission objectives and desired intermediate results in
each of the focus sectors for assistance to Pakistan, and the performance management plan explains how
the mission will collect data on and measure progress in these areas.

To reduce fiduciary risks, USAID has hired accounting firms to conduct preaward assessments to ensure
that potential recipients of USAID assistance meet U.S. transparency and accountability standards.
These assessments identify and document potential recipients’ weaknesses and areas for improvement.
USAID then works with partners to build capacity and mitigate risks. In addition, USAID increasingly
uses fixed-amount reimbursable agreements for assistance programs implemented through Pakistani
institutions. These agreements require milestones to be achieved and independently verified before
payments are processed.

USAID has also established an Assessment and Strengthening Program to build the institutional capacity
of local Pakistani organizations. The program helps identify, address, and validate responses to
institutional capacity weaknesses in public sector, civil society, and for-profit institutions. It enables
USAID/Pakistan to work with a wide range of local implementing partners and host-government
institutions in an effective, transparent, efficient, and responsive manner without having to resort to
consultancies or support arrangements provided on a project-by-project basis.

The capacity-building process focuses on specific organizational needs identified through preaward
assessments and on national development objectives and requirements. Efforts include developing
dedicated project management units in the government, improving policies and procedures, reviewing
and strengthening organizational structure, ensuring adequate internal controls, improving financial
management and procurement processes, increasing employee skills through on-the-job technical
assistance, and providing relevant tools and products for carrying out government functions.

In addition to these program strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:

    Maintaining an in-country oversight presence. As of December 31, 2012, USAID OIG had
    14 permanent staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees),
    supplemented by a staff member on temporary duty. To support its Pakistan portfolio, DOS OIG
    had one U.S. direct hire and one U.S. personal services contractor on staff in Islamabad at the end of
    the reporting period. An additional DOS OIG U.S. direct-hire employee was due to arrive in
    Pakistan in January 2013.

    Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
    provided to Pakistani NGOs. As of December 31, 2012, USAID OIG had a roster of 28 eligible audit



                                                                                                        60
     firms in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
     October 15, 2009, USAID OIG has nearly doubled the size of this roster.

     Providing training to Pakistani public accounting firms and to the Office of the Auditor General. USAID OIG
     training for Pakistani public accounting firms and the Office of the Auditor General covers the
     standards and requirements for financial audits of U.S. Government funds. In FY 2012, USAID OIG
     provided this training to 13 employees of the Office of the Auditor General and 55 participants from
     24 public accounting firms. OIG plans to conduct another training session for Office of Auditor
     General personnel and representatives of public accounting firms during the second quarter of
     FY 2013.

     Providing training to NGOs, government organizations, and USAID contracting and agreement officers’
     representatives and financial analysts. During FY 2012, USAID OIG provided training on the standards
     and requirements for financial audits of U.S. Government funds to 73 participants from NGOs,
     13 government officials, and 19 USAID staff members.

     Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
     financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by providing
     support during the audit process. USAID OIG also reviews the final reports to ensure that the
     audits were performed in accordance with its Guidelines for Financial Audits Contracted by Foreign
     Recipients. The Office of the Auditor General completed 11 financial audits of USAID-funded
     activities this quarter.

     Working with Pakistan’s National Accountability Bureau.14 USAID OIG established a working
     relationship with the National Accountability Bureau in early 2010 and continues to coordinate
     efforts and collaborate on investigations.

     Collaborating with USAID/Pakistan to establish and maintain the Anti-Fraud Hotline in Pakistan. As the
     only one of its kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to
     provide feedback to USAID, its implementing partners, and the Government of Pakistan. This
     quarter, the hotline received 432 complaints through various channels—e-mail, Internet, facsimile,
     mail, and in person. These complaints relate to projects funded by USAID, the Pakistani
     Government, and international organizations.

     Providing fraud awareness briefings and expanding investigative coverage. USAID OIG investigators also
     conduct fraud awareness briefings to alert participants—employees, contractors, and grantees—to
     fraudulent practices and schemes and to provide guidance on how to report fraud. During the
     quarter, OIG special agents in Pakistan conducted six fraud awareness briefings for 79 attendees.

14
   The National Accountability Bureau is the primary law enforcement agency in Pakistan responsible for
investigating white-collar crime and public corruption. It is Pakistan’s only law enforcement agency authorized to
conduct investigations in FATA.


                                                                                                               61
Coordinating audits and investigations with other U.S. agencies. USAID OIG coordinates audit and
investigative work with other OIGs, the Government Accountability Office (GAO), and law
enforcement agencies including the Federal Bureau of Investigation’s International Corruption Unit,
the National Procurement Task Force, the Financial Crimes Enforcement Network, and the U.S.
Embassy’s Legal Attaché Office to eliminate duplication and maximize efficient use of government
resources.




                                                                                                62
Oversight Status
Because U.S. civilian assistance programs and activities in Pakistan are implemented by several agencies,
more than one oversight organization has the authority to conduct related audits, reviews, inspections,
and investigations. The OIGs for DOS and USAID, along with GAO, reported that they had conducted
Pakistan-related work during the quarter; the OIGs for DOC, DOD, the Department of Homeland
Security, the Department of Justice, and USDA reported that they did not undertake any oversight
activities specific to Pakistan during the reporting period and had no planned audit work pertaining to
Pakistan.


Department of State Office of Inspector General

Work Completed

From October 1 to December 31, 2012, DOS OIG completed one review related to Pakistan:

     Compliance Followup Review of Department of State Internal Controls Over the
     J. William Fulbright Scholarship Fund in Pakistan (Report No. AUD-MERO-13-18,
     December 31, 2012). OIG reviewed the Fulbright Program in Pakistan to determine whether
     actions taken by the Department to implement recommendations made in a previous report15 had
     been effective. OIG auditors found that DOS had improved financial reporting, integrated grants
     management into its accounting system, and hired a needed contractor. As a result, the
     Department had taken sufficient action to close 10 of the 11 recommendations in the original
     report. However, OIG reissued one recommendation to the Bureau of Educational and Cultural
     Affairs because it had not ensured that the U.S. Educational Foundation in Pakistan had instituted an
     adequate internal control system to meet Fulbright Foreign Scholarship Board requirements or
     those in its finance and accounting manual.

Work Under Way

As of December 31, 2012, DOS OIG had one audit under way:

     Audit of the Administration and Oversight of the Pakistan National Police Training and
     Mentoring Program. This audit will evaluate whether INL is efficiently and effectively managing
     the Pakistan Law Enforcement Reform Program and whether INL is achieving intended and
     sustainable results through each component of the program.

15
   DOS OIG, ―Limited Scope Review of Management and Internal Controls Over the J. William Fulbright
Scholarship Fund in Pakistan,‖ MERO-I-09-07, May 2009.


                                                                                                       63
Work Planned

In addition to those under way, DOS OIG plans to conduct one evaluation and two audits of Pakistan-
related programs and activities in FY 2013:

   Evaluation of the Emergency Action Plan for Embassy Islamabad. The evaluation will
   focus on Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the
   completeness of associated documentation, and the general knowledge and preparedness of all
   mission personnel.

   Audit of the Administration and Oversight of the Pakistan Counterinsurgency
   Capability Fund. This audit will determine whether the DOS’s administration and oversight of the
   Pakistan Counterinsurgency Capability Fund are effective.

   Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Judicial
   Reform Programs in Pakistan. This audit will determine whether INL’s administration and
   oversight of its judicial reform programs in Pakistan are effective and whether the programs are
   achieving stated program objectives.

Investigative Work

DOS OIG closed one investigation during the reporting period.


USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the Millennium Challenge
Corporation, the U.S. African Development Foundation, and the Inter-American Foundation. USAID
OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002. In
recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and stabilization,
reconstruction, sustainable development, education, and health care. USAID OIG’s oversight activities
include performance audits and reviews, financial audits, and investigations.

Since the start of FY 2010, USAID OIG has issued 57 Pakistan-based financial audits and agreed-upon
procedures reports and 20 performance audits and reviews of Pakistan-related assistance efforts. These
reports have made 139 recommendations for improvements to USAID programs and activities.
Performance audits conducted since FY 2010 have noted the need for improvements in a range of
management and performance areas. Half of OIG performance audits have identified contract or
project management deficiencies, more than four in ten have found internal control weaknesses, and
more than a third have noted noncompliance with relevant procedures or regulations. Financial audits
overseen by OIG since FY 2010 have covered $632.1 million in expenditures. OIG audits during this



                                                                                                    64
period have identified approximately $25.3 million in sustained questioned costs and funds to be put to
better use.

Work Completed

From October 1 to December 31, 2012, USAID OIG completed 15 financial audit reports and 2 reports
on agreed-upon procedures.

     Financial Audit of USAID Resources Managed by the Rural Support Programmes
     Network as a Subrecipient of the Population Council Under the Family Advancement
     for Life and Health Program, Agreement No. 391-A-00-07-01092-00, for the Year
     Ended June 30, 2011 (Report No. G-391-13-001-R, October 2, 2012). The audit covered
     total revenues and costs of $902,897 and $896,366, respectively, and questioned costs of $64,780.
     Auditors questioned these costs pertaining to an award subrecipient, the Sindh Rural Support
     Organization (SRSO), because an audit of its expenditures had not been performed as required.
     USAID OIG considered this a material instance of noncompliance but did not make a related
     recommendation because a previous financial audit addressed the matter.16

     Closeout Financial Audit of the Emergency Relief Items to Communities Affected by
     Floods in Pakistan Program, Agreement No. 391-A-0010-01187-00, Managed by the
     Rural Support Programmes Network, for the Period August 13 to November 15, 2010
     (Report No. G-391-13-002-R, October 3, 2012). This audit covered total revenues and costs
     of $2,329,071 and $1,966,203 respectively, under the program. Because funds received by an award
     subrecipient, SRSO, had not been audited as required, this audit questioned $377,789 in
     expenditures pertaining to the subrecipient but did not make a related recommendation because a
     previous financial audit addressed the matter.17 This audit did not identify any other material
     weakness in internal control or any instances of noncompliance, but questioned an additional $929
     in ineligible costs and made one related recommendation.

     Financial Audit of the Assessment and Strengthening Program for Civil Society
     Organizations, Agreement No. 391-A-00-11-01201-00, Managed by the Rural Support
     Programmes Network, for the Period October 12, 2010, to June 30, 2011 (Report No.
     G-391-13-003-R, October 3, 2012). The audit covered total revenues and costs of $1,048,944
     and $980,782, respectively. It did not identify any questioned costs, material weakness in internal
     control, or material instances of noncompliance.




16
   USAID OIG, ―Financial Audit of the Emergency Relief and Early Recovery for Flood Affectees Across Pakistan
Program, Agreement No. 391-A-00-11-01204-00, Managed by the Rural Support Programmes Network, for the
Period October 15, 2010, to June 30, 2011,‖ Report No. G-391-12-019-R, September 26, 2012.
17
   Ibid.


                                                                                                          65
Financial Audit of the Small Grants and Ambassador’s Fund Program, Subaward Under
Contract No. 391-C-00-10-01189-00, Managed by the Rural Support Programmes
Network, for the Period August 31, 2010, to June 30, 2011 (Report No. G-391-13-004-R,
October 4, 2012). This audit covered $52,147 in revenues and $123,886 in costs. Auditors did
not question any costs or identify any material weakness in internal control or instances of
noncompliance.

Agreed-Upon Procedures Review of USAID Resources Managed by the Rural Support
Programmes Network Under the Sindh Agricultural Recovery Project (Report No. G-
391-13-001-O, October 24, 2012). This review covered total costs of $13,987,593 incurred
under the program from November 15, 2010, to July 31, 2011. Auditors questioned $6,223,045 in
costs associated with noncompetitive procurements, overpayments, underdistribution of
commodities, and ineligible travel costs, among other items. Auditors also identified several
weaknesses in internal control and instances of noncompliance. OIG made two recommendations
to address these matters.

Financial Audit of the USAID Cash Transfer Managed by the Higher Education
Commission Under Grant No. 391-012, Implementation Letter No. 3, for the Period
September 30, 2009, to June 30, 2010 (Report No. G-391-13-005-R, October 31, 2012).
This audit covered revenues and costs of $44,934,972 under USAID’s grant for budget support for
university and technical education in Khyber Pakhtunkhwa. OIG questioned $2,402,024 in costs
related to ineligible beneficiaries, unauthorized student charges, duplicate payments, and funds
provided to universities that were not supported by expenditure reports. OIG made two
recommendations to address associated issues and to ensure that in the future universities receiving
grant funds from the Pakistani Government need financial assistance.

Financial Audit of USAID Funds Managed by the Northern Power Generation
Company Limited Under Program Assistance Agreement No. 391-MUZ-FARA-004-00
for the Period May 20, 2010, to June 30, 2011 (Report No. G-391-13-006-R,
November 1, 2012). The audit covered fixed-amount reimbursements of $4,464,500 and did not
identify any questioned costs or material internal control weaknesses. However, auditors noted
several material instances of noncompliance, such as failures to adhere to environmental standards
and a lack of required operating procedures. OIG made one recommendation to address these
problems.

Financial Audit of Malakand Reconstruction and Recovery Program, Housing Cash
Transfer Grant Agreement No. 391-011, Implementation Letter No. HSG-02, Managed
by the Provincial Disaster Management Authority / Provincial Relief, Rehabilitation and
Settlement Authority, for the Year Ended June 30, 2011 (Report No. G-391-13-007-R,
November 8, 2012). The audit covered total revenues and costs of $24,000,000 and
$22,446,000, respectively. Auditors identified ineligible questioned costs of $193,156 related to



                                                                                                 66
interest earned on funds that were not disbursed to beneficiaries in a timely manner. The report
made two recommendations.

Financial Audit of USAID Funds Managed by Jamshoro Power Company Limited Under
Program Assistance Agreement No. 391-JAM-FARA-003-00 for the Year Ended
June 30, 2011 (Report No. G-391-13-008-R, November 15, 2012). This audit covered fixed-
amount reimbursements of $670,000 under an agreement to repair and rehabilitate Pakistan’s
Jamshoro Power Plant. Auditors did not identify any questioned costs, material internal control
weaknesses, or material instances of noncompliance in their audit report. However, in a separate
management letter issued to the management of Jamshoro Power Company, auditors conveyed
several observations. OIG considered three of them material instances of noncompliance and made
one related recommendation.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Program Assistance Agreement No. 391-PEPA-ENR-GOMAL-PIL-001
for the Year Ended June 30, 2011 (Report No. G-391-13-009-R, December 3, 2012). The
audit covered fixed-amount reimbursements of $26,053,000 under an agreement to fund
construction of the Gomal Zam Dam, transmission lines, and a hydropower component. Auditors
did not question any costs but noted one material instance of noncompliance, and OIG made one
recommendation to correct it.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Program Assistance Agreement No. 391-TDR-FARA-002-00 for the
Year Ended June 30, 2011 (Report No. G-391-13-010-R, December 3, 2012). The audit
covered fixed-amount reimbursements of $9,509,000 under an agreement to fund the repair and
rehabilitation of the Tarbela Power Plant. Auditors did not identify any questioned costs, material
internal control weaknesses, or material instances of noncompliance.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Program Assistance Agreement No. 391-PEPA-ENR-SATPARA-PIL-
001 for the Year Ended June 30, 2011 (Report No. G-391-13-011-R, December 5, 2012).
This audit covered fixed-amount reimbursements of $9,397,300 under an agreement to fund
construction on hydropower and irrigation projects associated with the Satpara Dam. Auditors did
not identify any questioned costs or material internal control weaknesses but did observe one
material instance of noncompliance, which led to an OIG recommendation.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Program
Assistance Agreement No. 391-SWA-FARA-001-00, for the Year Ended June 30, 2011
(Report No. G-391-13-012-R, December 18, 2012). The audit covered fixed-amount
reimbursements of $7,593,271 under an agreement to fund the widening and improvement of the
Jandola-Kotkai-Sararogha Road. Auditors questioned costs incurred by the FATA Secretariat, but
OIG did not make any related recommendations because the recipient was not reimbursed for

                                                                                                67
those costs above approved rates or for those costs that did not contribute to the achievement of
independently verified milestones.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Program
Assistance Agreement No. 391-AAG-011-SWA-TANK for the Year Ended June 30,
2011 (Report No. G-391-13-013-R, December 18, 2012). This audit covered fixed-amount
reimbursements of $13,251,380 under an agreement to fund the widening and improvement of the
Tank-Kaur and Kaur-Jandola Roads. Auditors questioned costs incurred by the recipient, but OIG
did not make any related recommendations because the recipient was not reimbursed for those
costs above approved rates or for those that did not contribute to the achievement of
independently verified milestones.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Program
Assistance Agreement No. 391-013, Project Implementation Letter for the Kaur-
Gomal-Tanai-Wana Road, for the Year Ended June 30, 2011 (Report No. G-391-13-014-
R, December 18, 2012). The audit covered fixed-amount reimbursements of $26,978,011.
Auditors questioned costs incurred by the recipient, but OIG did not make any related
recommendations because the recipient was not reimbursed for those costs above approved rates
or for those that did not contribute to the achievement of independently verified milestones.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Program
Assistance Agreement No. 391-013-001 for the Reactivation and Rehabilitation of
Damaged Transformers and 33-Kilovolt High-Tension and 11-Kilovolt Low-Tension
Lines, for the Year Ended June 30, 2011 (Report No. G-391-13-015-R, December 18,
2012). The audit covered fixed-amount reimbursements of $3,400,000. Auditors questioned costs
incurred by the recipient but OIG did not make any related recommendations because the recipient
was not reimbursed for those costs above approved rates or for those that did not contribute to
the achievement of independently verified milestones.

Financial Procedures Review of USAID/Pakistan Resources Managed by Save the
Children Under the Improved Child Health in the Federally Administered Tribal Areas
Program (Report No. G-391-13-002-O, December 21, 2012). This agreed-upon procedures
engagement covered revenues and costs of $21,280,765 and $21,199,942, respectively. Auditors
questioned $4,775,834 in costs because evidence of proper authorizations was not available,
procurements had not been made competitively, or supporting documentation was not available to
establish that procurements were made competitively. In addition to these issues, auditors noted
six material weaknesses in internal control—such as failures to adhere to personnel recruitment
policies and poor inventory record maintenance—and three material instances of noncompliance.
OIG made two recommendations to address these issues.




                                                                                              68
Work Under Way

As of December 31, 2012, USAID OIG had three performance audits and one financial audit in progress:

   Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power
   Station Repair and Rehabilitation Project. This audit will determine whether USAID/Pakistan
   has built sustainability into the repair and rehabilitation of the Jamshoro Thermal Power Station.

   Audit of USAID/Pakistan’s Monitoring and Evaluation Program. This audit will determine
   whether USAID/Pakistan is using results from its monitoring and evaluation program to manage its
   portfolio.

   Audit USAID/Pakistan’s Gender Equity Program Implemented by the Aurat
   Foundation. This audit will determine whether the program has advanced women’s rights by
   expanding women’s access to justice, combating gender-based violence, and strengthening the
   capacity of Pakistani organizations that advocate for women’s rights.

   Financial Audit of the Government of Pakistan’s Receipts and Disbursements of Special
   Rupee and Revolving Fund Accounts Under USAID-Funded Agreements.

Work Planned

In addition to those completed and under way, USAID OIG plans to conduct nine performance audits
during the remainder of FY 2013:

   Audit of USAID/Pakistan’s FATA Secretariat Capacity Building Program—Phase II.
   This audit will determine whether the program is improving the capacity of governmental
   institutions to govern through training, automating processes, and developing management and
   financial systems.

   Audit of USAID/Pakistan’s Smallholder Dairy Project. This audit will determine whether
   the project is strengthening the skills of dairy farmers and livestock workers to expand yields,
   improve breeding interventions, and increase incomes.

   Audit of USAID/Pakistan’s Agribusiness Project. This audit will determine whether the
   project is effectively monitoring whether farmers’ incomes and employment opportunities have
   increased as a result of the development of agricultural value chains.

   Audit of USAID/Pakistan’s Government-to-Government Assistance.                    This audit will
   determine whether this is an effective development mechanism.



                                                                                                   69
    Audit of USAID/Pakistan’s Entrepreneurs Project. This audit will determine whether the
    project has succeeded in increasing the incomes of 75,000 microenterprise owners, and whether
    USAID has taken effective corrective actions in response to the recommendations of a previous
    OIG audit of the program (Report No. G-391-12-005-P, April 20, 2012).

    Audit of USAID/Pakistan’s Small Grants and Ambassador’s Fund Program. This audit
    will determine whether this initiative has resulted in community-based projects that meet
    community needs.

    Audit of USAID/Pakistan’s Power Distribution Improvement Program. This audit will
    determine whether the program is improving the operational and financial performance of the eight
    electric power distribution companies in Pakistan by reducing losses, increasing revenues, and
    improving service.

    Audit of USAID/Pakistan’s Reconstruction of Schools in Malakand. This audit will
    determine whether projects to reconstruct 74 schools have been completed as planned.

    Audit of the Sindh Basic Education Program. This audit will determine whether the program
    is achieving its goals of increasing and sustaining student enrollment in targeted areas.

Investigative Work and the Anti-Fraud Hotline

As of December 31, 2012, USAID OIG had 30 open investigations pertaining to Pakistan. OIG
investigators did not close any cases during the quarter. However, the following significant investigative
developments took place:

    Head of Local USAID Implementing Partner Resigns Following OIG Investigation. In
    December 2012, the SRSO board of directors accepted the resignation of its chief executive officer
    (CEO) in connection with a yearlong OIG investigation into alleged mismanagement, theft, and
    corruption associated with SRSO’s participation in several USAID-funded projects.             OIG
    investigators learned that the CEO had obstructed OIG’s investigation into the allegations. He had
    instructed two employees to have villagers sign falsified documentation indicating that they had
    received payment under a USAID project, though they had not. In May 2012, USAID proposed
    SRSO for debarment. A final decision on that matter is pending.

    Investigation Leads to Correction of Noncompliance. In mid-2012, OIG initiated an
    investigation into allegations of conflicts of interest on the part of a senior official of the Aurat
    Foundation, the Pakistani NGO implementing USAID’s Gender Equity Program. The program is
    designed to empower women and promote their rights through grants to civil society organizations
    addressing these issues. OIG’s investigation revealed that a preexisting relationship existed between
    the Aurat Foundation official and representatives of organizations receiving program
    grants. Although the appearance of a conflict of interest may have existed, the investigation did not
    reveal any evidence of inappropriate conduct in the grant process. In the course of conducting the

                                                                                                       70
    inquiry, however, OIG investigators learned that the Aurat Foundation did not have a conflict-of-
    interest policy as required by its cooperative agreement with USAID. OIG notified USAID/Pakistan
    of this noncompliance, and the Aurat Foundation established the required policy in December 2012.

Outreach. USAID OIG continued to work to reinforce fraud reporting and investigation in Pakistan
through outreach efforts. During the reporting period, OIG conducted six fraud awareness briefings for
79 participants. Investigative outreach efforts this quarter focused on employees of USAID
implementing partners and local audit firms.

Anti-Fraud Hotline. USAID OIG also continued to work closely with the hotline to vet and
investigate incoming complaints. This quarter, the hotline received 432 complaints.

Consistent with patterns of reporting in previous quarters, most hotline complaints originated from
Sindh Province. During this quarter, total complaints were distributed across Pakistan’s regions as
follows: Sindh 283 (66 percent), Balochistan 68 (16 percent), Punjab 51 (12 percent), and Khyber
Pakhtunkhwa 13 (3 percent). Other areas of Pakistan combined to account for 4 percent of complaints.

As shown in the following graphic, slightly more than half of complaints received during the reporting
period related to service delivery.


                Figure 2. Distribution of Hotline Complaints by Type

                                   8%
                                           4%
                                                1%
                                                             Solicitation of Bribe, Kickback, or Favor
                34%
                                                             Theft
                                                             Procurement Fraud or Rules Violation
                                                             Problem With Service Delivery
                                          53%                Other




              Source: Transparency International–Pakistan.


Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on television,
radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has received a
significant volume of complaints related to programs implemented by other agencies. USAID OIG
refers these complaints to the appropriate agency for further review and investigation. From October 1
                                                                                                         71
to December 31, 2012, OIG referred 171 hotline complaints to outside entities, including WFP,
UNICEF, the UN Office for Project Services, the World Bank, Pakistan’s BISP, Save the Children, and
the National Rural Support Programme.


Government Accountability Office

GAO continues to assist congressional clients by conducting oversight of U.S. efforts in Pakistan. GAO
had one ongoing Pakistan-related engagement during this reporting period. GAO’s plans for additional
Pakistan-related work are subject to congressional interests and requests.

Work Under Way

As of December 31, 2012, GAO had one ongoing engagement concerning Pakistan:

   Pakistan Visa Delays. Since fiscal year 2002, Pakistan has received more than $25 billion in U.S.
   funding, including training provided to Pakistani officials. Much of this training is provided by U.S.
   officials; however, GAO has found that U.S. officials report delays in obtaining visas to travel to
   Pakistan. GAO is (1) evaluating how and to what extent U.S. agencies track information on the
   status of visas for U.S. officials for travel to Pakistan, (2) determining the extent to which U.S.
   officials experience delays obtaining a visa for travel to Pakistan and the causes of such delays, and
   (3) examining how delays affect the delivery and oversight of U.S. assistance programs as well as
   what steps agencies have taken to address potential delays and their effects. GAO expects to
   complete this engagement in the spring of 2013.




                                                                                                      72
                                                                                           Appendix I



Appendix I—–Distribution of U.S. Assistance by Agency
The following table provides information on the obligation and disbursement of assistance by federal
agencies and offices from FY 2010 through December 31, 2012.

   Civilian Assistance to Pakistan by Sector, Agency, and Fund as of December 31, 2012
                                   ($ Million; Unaudited)

                                                       Obligated*                         Disbursed
     Managing
                               Fund                                                                  †
  Agency or Office                                                                      FYs 2010–2012
                                       FY 2010      FY 2011    FY 2012      Total

 Energy

 USAID                   ESF                 98.3      237.5          –        335.8          195.7
 Subtotal                                   98.3       237.5          –        335.8          195.7

 Economic Growth

 DOC                     ESF                  –          1.0          –          1.0            2.7
 DOT                     ESF                  0.1         –           –          0.1            0.1
 USAID                   ESF                 79.6      164.1          –        243.8          126.9
 USDA                    ESF                 18.9        9.9         0.3        29.1           19.7
 USTDA                   ESF                  –          3.0          –          3.0            3.8
 Subtotal                                   98.6       178.1         0.3       277.0          153.1

 Stabilization

 DOS OIG                 ESF                  2.0         –           –          2.0            2.0
 Economic Section,
                         NADR                15.0       10.7          –         25.7            –
 U.S. Embassy
                         ESF                  –           –           –             –          15.7
 INL, DOS
                         INCLE              166.0      114.4         4.0       284.4          140.6
 Office of the Special
 Representative for
                         ESF                  –           –           –             –           1.0
 Afghanistan and
 Pakistan, DOS
 POL, U.S. Embassy       NADR                 1.6        1.8         0.8         4.2            1.0
 RSO, U.S. Embassy       NADR                15.4       10.0          –         25.4           23.7
                         ESF                248.8      150.4         0.6       399.8          440.8
 USAID
                         PCF                  –         70.0          –         70.0            –



                                                                                                    73
                                                                                      Appendix I


                                                   Obligated*                        Disbursed
    Managing
                          Fund                                                                  †
 Agency or Office                                                                  FYs 2010–2012
                                    FY 2010     FY 2011    FY 2012      Total

USIP                ESF                   3.0         –            –         3.0           1.8
Subtotal                                451.8      357.2          5.4     814.4          626.8

Education

PAS, U.S. Embassy   ESF                  19.5       19.5         19.5     58.5           58.0
USAID               ESF                 206.4       82.3           –     288.7          222.7
Subtotal                                225.9      101.8         19.5    347.2          280.7

Health

USAID               ESF / GHCS          224.3       84.7           –     309.1          212.7

Subtotal                                224.3       84.7           –     309.1          212.7

Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency

DOD                 ESF                   7.0        7.0           –       14.0            1.0
                    ESF                   5.0         –            –         5.0           1.3

DRL, DOS
           ‡        Human Rights
                    & Democracy           2.1         –            –         2.1           1.7
                         §
                    Fund
                    Consular and
                    Diplomatic            6.9        9.5         25.6      42.0           14.6
PAS                 Programs
                    ESF                    –         9.2           –         9.2           9.2
USAID               ESF                  97.6      118.4           –      216.0          105.0
Subtotal                                118.6      144.1         25.6     288.3          132.8

Humanitarian Assistance

                    ERMA                 33.0         –            –       33.0           33.0
PRM, DOS**
                    MRA                  57.0       33.5         12.2     102.7          102.7
                    ESF                 334.7         –            –      334.7          683.0
                    Food for
                                         96.8      115.1         98.2     310.0          310.2
                    Peace
USAID
                    International
                    Disaster            358.6       60.1         41.0     459.6          547.0
                    Assistance
Subtotal                                880.1      208.6        151.3    1,240.1       1,675.9



                                                                                                74
                                                                                                          Appendix I


                                                                  Obligated*                           Disbursed
        Managing
                                 Fund                                                                             †
     Agency or Office                                                                                FYs 2010–2012
                                               FY 2010       FY 2011      FY 2012         Total

    Total                                         2,097.8      1,312.0         202.1       3,611.9         3,277.6

Source: U.S. Embassy Islamabad.

Note: Numbers do not always sum to subtotals and totals because of rounding. A dash indicates a value of zero.

*    Obligations are reported by the fiscal year in which funds were appropriated.
†    Disbursement figures refer to funds disbursed in FYs 2010–2012 regardless of when they were appropriated or
     obligated. Some disbursements this period were of funds appropriated before FY 2010. As a result, these figures
     cannot be used to determine how much of the obligated funding reported in this table remains unexpended.

‡    In addition to funds from ESF and the Human Rights and Democracy Fund, DRL assistance to Pakistan for
     crosscutting priorities has been supported by less than $100,000 in Development Assistance funding.

§    DRL has provided additional assistance to Pakistan as part of a grant program that also funds activities in Saudi
     Arabia. Because the level of funding provided for activities in Pakistan in particular is not available, funds
     associated with the grant program are not included in this table.

** In addition to these funds, PRM provides funding to assist Afghan refugees in the region, including those in
     Pakistan. PRM obligated $232.7 million in FY 2010–2012 funds and disbursed $218.5 million from October 1,
     2009, to December 31, 2012, for this regional effort.




                                                                                                                   75
                                                                                               Appendix II



Appendix II—Completed Oversight Reports
The following table lists oversight reports completed since the passage of the Enhanced Partnership with
Pakistan Act, October 15, 2009.

                    Oversight Reports Completed as of December 31, 2012

    Agency        Report Number       Report Date                         Report Title

FY 2013 Reports

                                                     Compliance Followup Review of Department of State
DOS               AUD-MERO-13-18        12/31/12     Internal Controls Over the J. William Fulbright
                                                     Scholarship Fund in Pakistan

                                                     Financial Procedures Review of USAID/Pakistan
                                                     Resources Managed by Save the Children Under the
USAID             G-391-13-002-O        12/21/12
                                                     Improved Child Health in the Federally Administered
                                                     Tribal Areas Program

                                                     Financial Audit of USAID Funds Managed by the FATA
                                                     Secretariat for the Reactivation and Rehabilitation of
USAID             G-391-13-015-R        12/18/12     Damaged Transformers and 33-Kilovolt High-Tension
                                                     and 11-Kilovolt Low-Tension Lines for the Year Ended
                                                     June 30, 2011

                                                     Financial Audit of USAID Funds Managed by the FATA
USAID             G-391-13-014-R        12/18/12     Secretariat for the Kaur-Gomal-Tanai-Wana Road for
                                                     the Year Ended June 30, 2011

                                                     Financial Audit of USAID Funds Managed by the FATA
                                                     Secretariat Under Program Assistance Agreement No.
USAID             G-391-13-013-R        12/18/12
                                                     391-AAG-011-SWA-TANK for the Year Ended June 30,
                                                     2011

                                                     Financial Audit of USAID Funds Managed by the FATA
                                                     Secretariat Under Program Assistance Agreement No.
USAID             G-391-13-012-R        12/18/12
                                                     391-SWA-FARA-001-00 for the Year Ended June 30,
                                                     2011

                                                     Financial Audit of USAID Funds Managed by the Water
                                                     and Power Development Authority Under Program
USAID             G-391-13-011-R        12/05/12
                                                     Assistance Agreement No. 391-PEPA-ENR-SATPARA-
                                                     PIL-001 for the Year Ended June 30, 2011

                                                     Financial Audit of USAID Funds Managed by the Water
                                                     and Power Development Authority Under Program
USAID             G-391-13-010-R        12/03/12
                                                     Assistance Agreement No. 391-TDR-FARA-002-00 for
                                                     the Year Ended June 30, 2011


                                                                                                           76
                                                                                      Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           Financial Audit of USAID Funds Managed by the Water
                                           and Power Development Authority Under Program
USAID       G-391-13-009-R     12/03/12
                                           Assistance Agreement No. 391-PEPA-ENR-GOMAL-PIL-
                                           001 for the Year Ended June 30, 2011

                                           Financial Audit of USAID Funds Managed by Jamshoro
USAID       G-391-13-008-R     11/15/12    Power Company Limited for the Year Ended June 30,
                                           2011

                                           Financial Audit of the Malakand Reconstruction and
                                           Recovery Program Managed by the Provincial Disaster
USAID       G-391-13-007-R     11/08/12    Management Authority / Provincial Relief, Rehabilitation
                                           and Settlement Authority, for the Year Ended June 30,
                                           2011

                                           Financial Audit of the USAID Funds Managed by the
USAID       G-391-13-006-R     11/01/12    Northern Power Generation Company for the Period
                                           May 20, 2010, to June 30, 2011

                                           Financial Audit of the USAID Cash Transfer Managed by
USAID       G-391-13-005-R     10/31/12    the Higher Education Commission for the Period
                                           September 30, 2009, to June 30, 2010

                                           Agreed-Upon Procedures Review of USAID/Pakistan
USAID       G-391-13-001-O     10/24/12    Resources Managed by the Rural Support Programs
                                           Network Under the Sindh Agricultural Recovery Project

                                           Financial Audit of the Small Grants and Ambassador’s
                                           Fund Program, Subaward Managed by the Rural Support
USAID       G-391-13-004-R     10/04/12
                                           Programmes Network, for the Period August 31, 2010,
                                           to June 30, 2011

                                           Financial Audit of the Assessment and Strengthening
                                           Program for Civil Society Organizations Managed by the
USAID       G-391-13-003-R     10/03/12
                                           Rural Support Programmes Network, for the Period
                                           October 12, 2010, to June 30, 2011

                                           Closeout Financial Audit of the Emergency Relief Items
                                           to Communities Affected by Floods in Pakistan Program
USAID       G-391-13-002-R     10/03/12
                                           Managed by the Rural Support Programmes Network,
                                           for the Period August 13 to November 15, 2010

                                           Financial Audit of USAID Resources Managed by the
                                           Rural Support Programmes Network as a Subrecipient
USAID       G-391-13-001-R     10/02/12    of the Population Council Under the Family
                                           Advancement for Life and Health Program, for the Year
                                           Ended June 30, 2011




                                                                                                77
                                                                                            Appendix II


   Agency         Report Number    Report Date                        Report Title

FY 2012 Reports

                                                 Evaluation of the Local Guard Force Contract for
DOS               AUD-MERO-12-46     09/30/12    Embassy Islamabad and Consulates General Karachi,
                                                 Lahore, and Peshawar

                                                 Support for Department Employees Serving in
DOS               ISP-I-12-49        09/30/12
                                                 Afghanistan, Iraq, and Pakistan

                                                 Audit of USAID/Pakistan’s Assessment and Strengthening
USAID             G-391-12-009-P     09/30/12
                                                 Program

                                                 Mi-17 Overhauls Had Significant Cost Overruns and
DOD               DODIG-2012-135     09/27/12
                                                 Schedule Delays

                                                 Section 632(a) Transfer of Funds for Pakistan from
USDA              50601-0001-16      09/27/12
                                                 USAID to USDA

                                                 Financial Audit of the Emergency Relief and Early
                                                 Recovery for Flood Affectees Across Pakistan Program
USAID             G-391-12-019-R     09/26/12
                                                 Managed by the Rural Support Programmes Network,
                                                 for the Period October 15, 2010, to June 30, 2011

                                                 Financial Audit of USAID Funds Managed by the Higher
                                                 Education Commission Under the Merit and Needs-
USAID             G-391-12-018-R     09/25/12
                                                 Based Scholarship Program, for the Year Ended June 30,
                                                 2011

                                                 Closeout Financial Audit of the Aga Khan University’s
                                                 Flood Response Program and National Nutrition Survey
USAID             G-391-12-017-R     09/13/12
                                                 Supplement Program, for the Period January 1, 2011, to
                                                 February 29, 2012

                                                 Audit of USAID/Pakistan's Gomal Zam Multipurpose
USAID             G-391-12-008-P     08/24/12
                                                 Dam Project

                                                 Audit of USAID/Pakistan's Reconstruction Program in
USAID             G-391-12-007-P     08/16/12
                                                 Earthquake-Affected Areas

                                                 Report on Agreed-Upon Forensic Procedures
                                                 Performed on Procurement Costs Incurred by Rafi Peer
USAID             G-391-12-001-O     07/31/12    Theatre Workshop to Implement the Pakistan Children
                                                 Television Project, for the Period May 7, 2010, to May
                                                 31, 2012

                                                 Closeout Financial Audit of the Pakistan
USAID             G-391-12-016-R     07/20/12    Competitiveness Support Fund for the Period July 1,
                                                 2011, to March 31, 2011



                                                                                                       78
                                                                                      Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           U.S. Agencies Face Challenges Countering the Use of
GAO         GAO-12-907-T       07/12/12    Improvised Explosive Devices in the Afghanistan/Pakistan
                                           Region

                                           Financial Audit of USAID Resources Managed by
USAID       G-391-12-015-R     07/12/12    Khushhali Bank Limited, for the Year Ended December
                                           31, 2011

                                           Closeout Financial Audit of USAID Resources Managed
USAID       G-391-12-014-R     07/10/12    by the Pakistan Poverty Alleviation Fund, for the Period
                                           August 12, 2010, to June 30, 2011

                                           Review of USAID/Pakistan’s Cost Estimates for Shipping
USAID       G-391-12-001-S     06/18/12
                                           and Storage

                                           Financial Audit of the Gender Equity Program Managed
                                           by the Aurat Publication and Information Service
USAID       G-391-12-013-R     06/12/12
                                           Foundation, for the Period August 15, 2010, to June 30,
                                           2011

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by
                                           Ernst & Young Ford Rhodes Sidat Hyder of the Gender
USAID       G-391-12-003-Q     06/12/12
                                           Equity Program, Managed by Aurat Publication and
                                           Information Service Foundation, for the Period August
                                           15, 2010, to June 30, 2011

                                           Compliance Followup Review of Embassy Islamabad and
DOS         ISP-C-12-28A       05/24/12
                                           Constituent Posts, Pakistan

                                           Audit of USAID/Pakistan’s Support to the Benazir
USAID       G-391-12-006-P     05/21/12
                                           Income Support Program

                                           State Should Enhance Its Performance Measures for
GAO         GAO-12-614         05/15/12    Assessing Efforts in Pakistan to Counter Improvised
                                           Explosive Devices

                                           Financial Audit of the USAID/Pakistan Grant Agreement
USAID       G-391-12-012-R     05/10/12    Managed by the Health Service Academy, for the Period
                                           July 1, 2010, to June 30, 2011

                                           Evaluation of the Antiterrorism Assistance Program for
DOS         AUD/MERO-12-29     04/30/12    Countries Under the Bureaus of Near Eastern Affairs
                                           and South and Central Asian Affairs

                                           Financial Audit of Projects Managed by Lahore University
                                           of Management Sciences: the Foreign Recipient
USAID       G-391-12-011-R     04/24/12    Contracted Assessment and Strengthening Program and
                                           Subrecipient Contracted Merit and Needs-Based
                                           Scholarship Program, for the Year Ended June 30, 2011


                                                                                                 79
                                                                                      Appendix II


   Agency   Report Number    Report Date                        Report Title

USAID       G-391-12-005-P     04/20/12    Audit of USAID/Pakistan’s Entrepreneurs Project

                                           Financial Audit of the Pakistan Children’s Television
USAID       G-391-12-010-R     04/17/12    Project Managed by the Rafi Peer Theatre Workshop,
                                           for the Period May 7, 2010, to June 30, 2011

                                           Financial Audit of the Monitoring and Evaluation Project
                                           and Assessment and Strengthening Program Managed by
USAID       G-391-12-009-R     04/17/12
                                           Associates in Development (Private) Limited, for the
                                           Period January 1, 2010, to June 30, 2011

                                           Financial Audit of the USAID Resources Managed by
USAID       G-391-12-008-R     04/03/12    National Rural Support Programme, for the Period July
                                           1, 2010, to June 30, 2011

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by
                                           Avais Hyder Liaqut Nauman of Anti-Corruption
USAID       G-391-12-002-Q     04/03/12
                                           Program Pakistan and the Anti-Fraud Hotline Program
                                           Managed by Transparency International–Pakistan, for the
                                           Year Ended June 30, 2011

                                           Financial Audit of USAID/Pakistan’s Rupee Trust Fund
USAID       G-391-12-001-N     03/20/12
                                           for the Period October 1, 2009, to September 30, 2011

                                           Audit of USAID/Pakistan’s Pre-Service Teacher
USAID       G-391-12-004-P     03/16/12
                                           Education Program

                                           Financial Audit of the Pakistan Competitiveness Support
USAID       G-391-12-007-R     03/06/12
                                           Fund for the Period July 1, 2010, to June 30, 2011

                                           Financial Audit of Budgetary Support Managed by the
USAID       G-391-12-006-R     02/24/12    Economic Affairs Division of the Government of Pakistan
                                           for the Period June 8, 2009, to June 15, 2011

                                           Quality Control Review of the Financial Audit
                                           Conducted by the Directorate General Audit, Federal
                                           Government, Department of the Auditor General of
USAID       G-391-12-001-Q     02/17/12
                                           Pakistan, of the Merit and Needs-Based Scholarship
                                           Project Managed by the Higher Education Commission,
                                           for the Period July 2, 2004, to June 30, 2010

                                           Financial Audit of the Merit and Needs-Based
                                           Scholarship Project Managed by the Higher Education
USAID       G-391-12-005-R     02/17/12
                                           Commission for the Period July 2, 2004, to June 30,
                                           2010

USAID       G-391-12-003-P     02/03/12    Audit of USAID’s Pakistan Transition Initiative Program


                                                                                                 80
                                                                                               Appendix II


   Agency         Report Number    Report Date                          Report Title

                                                 Financial Audit of Anti-Corruption Program Pakistan and
USAID             G-391-12-004-R     01/13/12    Anti-Fraud Hotline Pakistan Managed by Transparency
                                                 International–Pakistan for the Year Ended June 30, 2011

                                                 Financial Audit of the Aga Khan University Flood
USAID             G-391-12-003-R     01/06/12    Response Program for the Period August 30, 2010, to
                                                 December 31, 2010

                                                 Pakistan: Assessment of State’s Justification to Support
GAO               NA                 11/29/11
                                                 Its Certification of Pakistan’s Cooperation (Classified)

                                                 Audit of USAID/Pakistan’s Energy Efficiency and Capacity
USAID             G-391-12-002-P     11/23/11
                                                 Program

USAID             G-391-12-001-P     11/03/11    Audit of USAID/Pakistan’s Firms Project

                                                 Financial Audit of Budgetary Support to the Government
                                                 of Pakistan, USAID/Pakistan Program Assistance
USAID             G-391-12-002-R     11/03/11
                                                 Agreement No. 391-005-ES-07, Managed by the Ministry
                                                 of Finance, for the Year Ended June 30, 2008

                                                 Financial Audit of Budgetary Support Managed by the
USAID             G-391-12-001-R     10/26/11    Benazir Income Support Program for the Period From
                                                 September 30, 2009, to March 31, 2011

FY 2011 Reports

                                                 Financial Audit of the Business Revitalization Program
USAID             G-391-11-005-R     09/21/11    Managed by Khushhali Bank for the Period February 6,
                                                 2010, to December 31, 2010

                                                 Combating Terrorism: Pakistan Counterinsurgency
GAO               GAO-11-860SU       09/20/11    Funds Disbursed, but Human Rights Vetting Process Can
                                                 Be Enhanced

                                                 Audit of USAID/Pakistan’s Community Rehabilitation
USAID             G-391-11-006-P     08/29/11
                                                 Infrastructure Support Program

                                                 Pakistan Assistance: Relatively Little of the $3 Billion in
                                                 Requested Assistance Is Subject to State’s Certification
GAO               GAO-11-786R        07/19/11
                                                 of Pakistan’s Progress on Nonproliferation and
                                                 Counterterrorism Issues

                                                 Inspection of the Bureau of South and Central Asian
DOS               ISP-I-11-47        06/30/11
                                                 Affairs

                                                 Inspection of the Office of the Special Representative for
DOS               ISP-I-11-48        06/30/11
                                                 Afghanistan and Pakistan



                                                                                                          81
                                                                                       Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by
USAID       G-391-11-003-Q     06/23/11
                                           A.F. Ferguson, of the Forman Christian College, for the
                                           Period July 1, 2009 to March 31, 2010

                                           Closeout Financial Audit of the Forman Christian
                                           College for the Development of a 4-Year Bachelor
USAID       G-391-11-004-R     06/23/11    Degree Program and Strengthening Programs in Basic
                                           Science and Information Technology, for the Period July
                                           1, 2009, to March 31, 2010

                                           Audit of USAID/Pakistan’s Road Rehabilitation and
USAID       G-391-11-005-P     06/20/11    Reconstruction Activities Under the Quick Impact
                                           Projects in South Waziristan

                                           Financial Audit of USAID/Pakistan’s Rupee Trust Fund
USAID       G-391-11-001-N     05/26/11
                                           for the Period October 1 2006, to September 30, 2009

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by
USAID       G-391-11-002-Q     05/10/11    Nasir Javaid Maqsood Imran of the Pakistan
                                           Competitiveness Support Fund for the Period July 1,
                                           2009, to June 30, 2010

                                           Financial Audit of the Pakistan Competitiveness Support
USAID       G-391-11-003-R     05/10/11
                                           Fund for the Period July 1, 2009, to June 30, 2010

                                           Audit of USAID/Pakistan’s Management of Preaward
USAID       G-391-11-004-P     05/06/11
                                           Assessments

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for Financial Audits Conducted by
                                           Khalid Majid Rahman Sarfraz Rahim Iqbal Rafiq of the
USAID       G-391-11-001-Q     04/08/11
                                           Interactive Teaching and Learning Project Managed by
                                           Children’s Global Network Pakistan Limited, for the
                                           Period July 1, 2008, to February 26, 2010

                                           Closeout Financial Audit of the Interactive Teaching and
                                           Learning Project, and Financial Audit of the Links to
                                           Learning Education Support to Pakistan Program
USAID       G-391-11-002-R     04/08/11
                                           Subaward Managed by Children’s Global Network
                                           Pakistan Limited, for the Period July 1, 2008, to February
                                           26, 2010

                                           Department of State’s Report to Congress and U.S.
GAO         GAO-11-310R        02/17/11    Oversight of Civilian Assistance to Pakistan Can Be
                                           Further Enhanced




                                                                                                 82
                                                                                              Appendix II


   Agency         Report Number    Report Date                         Report Title

                                                 Accountability for U.S. Equipment Provided to Pakistan
GAO               GAO-11-156R        02/15/11    Security Forces in the Western Frontier Needs to Be
                                                 Improved

                                                 Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID             G-391-11-003-P     01/24/11
                                                 Administered by Local Nongovernmental Organizations

                                                 The Bureau of Population, Refugees and Migration’s
DOS               MERO-I-11-01       01/18/11
                                                 Internally Displaced Persons Program in Pakistan

                                                 Closeout Financial Audit of Khushhali Bank Limited
                                                 Under the Developing Non-Bankable Territories for
USAID             G-391-11-001-R     12/30/10
                                                 Financial Services Program, for the Period January 1,
                                                 2009, to September 30, 2009

                                                 Audit of USAID/Pakistan’s Livelihood Development
USAID             G-391-11-002-P     12/10/10    Program for the Upper Region of the Federally
                                                 Administered Tribal Areas

                                                 Audit of USAID/Pakistan’s Livelihood Development
USAID             G-391-11-001-P     12/10/10    Program for the Lower Region of the Federally
                                                 Administered Tribal Areas

                                                 Financial Audit of the Costs Incurred by Research
                                                 Triangle Institute Under the Education Sector Reform
USAID             G-391-11-001-D     11/08/10    Assistance Program’s School Enhancement Program
                                                 Component, for the Period December 4, 2002, to
                                                 September 30, 2007

FY 2010 Reports

                                                 Audit of USAID/Pakistan’s Family Advancement for Life
USAID             5-391-10-012-P     8/31/10
                                                 and Health Program

                                                 Financial Audit of the Pakistan Competitiveness Support
USAID             G-391-10-001-R     08/04/10
                                                 Fund for the Period February 3, 2006, to June 30, 2009

                                                 Audit of USAID/Pakistan’s Primary Healthcare
USAID             5-391-10-010-P     06/28/10    Revitalization, Integration and Decentralization in
                                                 Earthquake-Affected Areas Project

                                                 Review of USAID’s Internally Displaced Persons
USAID             5-391-10-001-S     06/28/10
                                                 Programs in Pakistan

DOS               ISP-I-10-64        06/30/10    Inspection of Embassy Islamabad, Pakistan

                                                 Financial Audit of USAID Funds Managed by Forman
USAID             5-391-10-033-R     05/18/10    Christian College, Lahore, for the Period July 1, 2007, to
                                                 June 30, 2009

                                                                                                         83
                                                                                        Appendix II


   Agency   Report Number    Report Date                         Report Title

                                           Financial Audit of USAID Funds Managed by Khushhali
USAID       5-391-10-029-R     04/30/10
                                           Bank for the Year Ended December 31, 2008

                                           Combating Terrorism: Planning and Documentation of
GAO         GAO-10-289         04/15/10    U.S. Development Assistance in Pakistan’s Federally
                                           Administered Tribal Areas Need to Be Improved

                                           Closeout Financial Audit of USAID Funds Managed by
USAID       5-391-10-026-R     03/24/10    Greenstar Social Marketing Pakistan (Guarantee)
                                           Limited, for the Period July 1 to December 31, 2007

                                           The Bureau of International Narcotics and Law
DOS         MERO-A-10-03       03/30/10    Enforcement Affairs Air Wing Program in Afghanistan
                                           and Pakistan, Performance Audit

                                           Closeout Financial Audit of USAID Funds Managed by
USAID       5-391-10-020-R     02/11/10    Aga Khan University—Examination Board, for the Year
                                           Ended December 31, 2007

                                           Audit of USAID/Pakistan’s Capacity Building for the
USAID       5-391-10-005-P     01/28/10    Federally Administered Tribal Areas Development
                                           Program

                                           Financial Audit of USAID Funds Managed by Children’s
USAID       5-391-10-012-R     12/22/09    Global Network Pakistan Limited, for the Year Ended
                                           June 30, 2008

                                           Status of the Bureau of International Narcotics and Law
DOS         MERO-A-10-02       12/23/09    Enforcement Affairs Counternarcotics Programs in
                                           Afghanistan, Performance Audit

                                           Effectiveness and Efficiency of the Bureau of International
                                           Narcotics and Law Enforcement Affairs
DOS         MERO-A-10-01        11/09
                                           Counternarcotics Programs in Pakistan, Performance
                                           Audit




                                                                                                  84
                                                                                  Appendix III



Appendix III—–Abbreviations
ATA      Antiterrorism Assistance Program

BISP     Benazir Income Support Program

CDC      Centers for Disease Control and Prevention, U.S. Department of Health and
         Human Services

CEO      Chief Executive Officer

DOC      U.S. Department of Commerce

DOD      U.S. Department of Defense

DOS      U.S. Department of State

DOT      U.S. Department of the Treasury

DRL      Bureau of Democracy, Human Rights, and Labor, U.S. Department of State

ERMA     Emergency Refugee and Migration Assistance

ESF      Economic Support Fund

EXBS     Export Control and Related Border Security Assistance Program

FATA     Federally Administered Tribal Areas

FFP      Food for Peace

FY       fiscal year

GAO      Government Accountability Office

GHCS     Global Health and Child Survival

HEC      Higher Education Commission

ICITAP   International Criminal Investigative Training Assistance Program


                                                                                           85
                                                                                    Appendix III


IDP      internally displaced person

INCLE    International Narcotics and Law Enforcement

INL      Bureau of International Narcotics and Law Enforcement Affairs,
         U.S. Department of State

MRA      Migration and Refugee Assistance

NADR     Nonproliferation, Anti-terrorism, Demining, and Related Programs

NGO      nongovernmental organization

OCHA     UN Office for the Coordination of Humanitarian Affairs

OFDA     U.S. Office of Foreign Disaster Assistance, U.S. Agency for International Development

OIG      Office of Inspector General

PaRRSA   Provincial Reconstruction, Rehabilitation and Settlement Authority

PAS      Public Affairs Section (U.S. Embassy Islamabad)

PCF      Pakistan Counterinsurgency Fund

POL      Political Section (U.S. Embassy Islamabad)

PRM      Bureau of Population, Refugees, and Migration, U.S. Department of State

RAPID    Responding to Pakistan’s Internally Displaced

RSO      Regional Security Office (U.S. Embassy Islamabad)

SRSO     Sindh Rural Support Organization

UN       United Nations

UNHCR    UN High Commissioner for Refugees

UNICEF   UN Children’s Fund

UNODC    UN Office on Drugs and Crime


                                                                                                 86
                                                    Appendix III


USAID   U.S. Agency for International Development

USDA    U.S. Department of Agriculture

USIP    U.S. Institute of Peace

USTDA   U.S. Trade and Development Agency

WAPDA   Water and Power Development Authority

WFP     World Food Programme




                                                             87
